U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                       A Review of the

             Department’s Anti-Gang Intelligence

                  and Coordination Centers

                              November 2009




                                I-2010-001

                                   EXECUTIVE DIGEST



      Gangs pose a serious threat to public safety throughout the
United States. Gang membership and gang-related criminal activity has
increased over the past 10 years, and gang violence is making increased
demands on law enforcement resources in many communities. Experts predict
that these trends will continue as gang-operated criminal networks expand. As
of September 2008, there were an estimated 1 million gang members – an
increase of 200,000 since 2005 – belonging to over 20,000 gangs that were
criminally active within the United States.1

       According to the 2009 National Gang Threat Assessment, criminal gangs
commit as much as 80 percent of the crime in many communities.2 In
addition, a number of U.S.-based gangs are working with foreign-based gangs
and criminal operations to facilitate transnational criminal activities. Typical
gang-related activities include alien smuggling, armed robbery, assault, auto
theft, drug trafficking, extortion, fraud, home invasions, identity theft, murder,
and weapons trafficking.

       The Department of Justice (Department) has stated that it is leading the
effort to combat the public safety threat posed by national and international
gangs. Its anti-gang strategy is intended to achieve “maximum impact at the
national level against the most violent gangs in the United States.”3

       In January 2007, Attorney General Alberto Gonzales announced that the
Department had taken several steps to address gang violence. Among those
efforts were the establishment of three new entities: (1) the National Gang
Intelligence Center (NGIC), which was established by statute in January 2006,
integrates the gang intelligence assets of all DOJ agencies and other partner
agencies; (2) the National Gang Targeting, Enforcement, and Coordination
Center (GangTECC), established in June 2006 by the Attorney General, serves
as a central coordinating center for multi-jurisdictional gang investigations;
and (3) the Gang Unit, another Attorney General initiative created in September
2006, develops and implements strategies to attack the most significant gangs


       1 National Gang Intelligence Center and National Drug Intelligence Center, 2009
National Gang Threat Assessment, November 2008, iii, 6.

       2   2009 National Gang Threat Assessment, iii.

       3 Department of Justice Fact Sheet: The National Gang Intelligence Center and the

National Gang Targeting, Enforcement, and Coordination Center, November 28, 2007.


U.S. Department of Justice                                                                 i
Office of the Inspector General
Evaluation and Inspections Division
and serves as the prosecutorial arm of the Department’s efforts against violent
gangs.

      The Office of the Inspector General (OIG) conducted this review to
examine the intelligence and coordination activities of NGIC and GangTECC
(the Centers), and to assess the effectiveness of their contributions to the
Department’s anti-gang initiatives.4 Specifically, we examined whether the
Centers provide comprehensive gang intelligence and coordination services to
enhance gang investigations and prosecutions in the field. In addition, we
assessed the effectiveness of the Department’s management and co-location of
the Centers.

National Gang Intelligence Center (NGIC)

       NGIC was established by statute in January 2006 to “collect, analyze,
and disseminate gang activity information” from various federal, state, and
local law enforcement, prosecutorial, and corrections agencies.5 The Federal
Bureau of Investigation (FBI) used existing resources from its Criminal
Intelligence Section to establish NGIC. The public law that established NGIC
also charged the FBI with administering NGIC as a multi-agency center where
intelligence analysts from federal, state, and local law enforcement work
together to develop and share gang-related information. NGIC was to provide a
centralized intelligence resource for gang information and analytical support to
law enforcement agencies. For fiscal year (FY) 2008, NGIC’s budget was
$6.6 million and, as of June 2009 there were a total of 27 staff at the NGIC.

Gang Targeting, Enforcement, and Coordinating Center (GangTECC)

       On February 15, 2006, Attorney General Gonzales announced plans to
create a new national anti-gang task force as part of an initiative to combat
gangs and gang violence. On June 26, 2006, GangTECC began operations
under the leadership of the Department’s Criminal Division. Its mission is to
bring together the Department’s operational law enforcement components and
the Department of Homeland Security’s Immigration and Customs
Enforcement (ICE) to identify, prioritize, and target violent street gangs whose
activities pose a significant multi-jurisdictional threat. According to its
Concept of Operations, GangTECC is intended to coordinate overlapping
investigations, ensure that tactical and strategic intelligence is shared between
law enforcement agencies, and serve as a central coordinating and
deconfliction center. Unlike NGIC, GangTECC is not authorized a separate

       4   We use the term “Centers” when referring to NGIC and GangTECC.

       5   28 U.S.C. 534 note (2006).


U.S. Department of Justice                                                  ii
Office of the Inspector General
Evaluation and Inspections Division
budget by statute. Instead, costs are borne by the contributing agencies. As of
early 2009, there were a total of 17 GangTECC staff members.

RESULTS IN BRIEF

      Our review found that, after almost 3 years of operation, NGIC and
GangTECC still have not made a significant impact on the Department’s
anti-gang activities. Despite being located in the same office suite, both NGIC
and GangTECC are not effectively collaborating and are not sharing
gang-related information.

       Most importantly, NGIC has not established a gang information database
for collecting and disseminating gang intelligence as directed by statute. NGIC
is perceived as predominately an FBI organization, and it has not developed the
capability to effectively share gang intelligence and information with other law
enforcement organizations.

       In contrast, we found that GangTECC has no budget and lacks the
resources to carry out its mission. We also found that the Criminal Division
has not filled an attorney position at GangTECC that is intended to enable it to
provide guidance to law enforcement officials conducting gang investigations
and prosecutions. In addition, because GangTECC’s member agencies and the
United States Attorneys’ Offices (USAO) are not required to inform GangTECC
of their investigations and prosecutions, GangTECC cannot effectively
deconflict the Department’s gang-related activities as directed by the Deputy
Attorney General. Further, GangTECC’s efforts to publicize its priority gang
targets have lagged.

      As a result of the above, NGIC and GangTECC are not effectively
providing investigators and prosecutors with “one-stop shopping” for gang
information and assistance, and they are not contributing significantly to the
Department’s anti-gang initiatives.

      The following sections of this Executive Digest describe our findings in
these areas.

NGIC has not developed a gang information database as directed by
Congress.

      In funding NGIC, Congress directed that NGIC was to, among other
things, serve as an “information management mechanism for gang intelligence




U.S. Department of Justice                                                 iii
Office of the Inspector General
Evaluation and Inspections Division
on a national and international scope.”6 To accomplish this, NGIC planned to
create and maintain a library of gang identification information and make that
library available to investigators, prosecutors, and other law enforcement staff.
In addition, NGIC planned to establish electronic bridges to federal, state, and
local information technology systems to connect disparate federal and state
databases containing gang information or intelligence.

      However, technological limitations and operational problems have
inhibited NGIC from deploying a gang information database. For example,
NGIC has not developed the electronic bridges necessary to allow it to access
information from states that have technologically disparate databases on
gangs.7 In addition, performance issues with a contractor contributed to the
delay in the development of the gang library. As of July 2009, the information
management system and electronic bridges have not progressed beyond the
development phase. Unless NGIC can obtain a technical solution for bridging
these databases, NGIC’s ability to use existing gang information will be very
limited.

      We believe that development of a gang information management system
is crucial to support the Department’s anti-gang initiatives and must be
achieved as soon as possible. Therefore, we recommend that:

      1.	 NGIC establish a working group composed of representatives from its
          member agencies and state and local law enforcement to identify
          methods for sharing gang-related intelligence across the law
          enforcement community. This working group should address, among
          other issues: (a) a definition of “gang” and criteria for identifying gang
          membership; and (b) data standards for entering gang information
          into databases.

       2. NGIC create an implementation plan that identifies functional
          requirements with milestone dates to procure a gang information
          management system.




       6 Conference Report, Making Appropriations for Foreign Operations, Export Financing,
and Related Programs for the Fiscal Year Ending September 30, 2005, and For Other Purposes,
November 19, 2004, H. Rept. 108-792.

       7 For example, California, Colorado, Florida, Illinois, Minnesota, South Carolina, Texas,
Washington, and Wisconsin are some of the states that have gang databases of varying types
and sizes.


U.S. Department of Justice                                                               iv
Office of the Inspector General
Evaluation and Inspections Division
NGIC is not effectively sharing gang intelligence and information.

      To effectively share gang intelligence and information, NGIC must know
the needs of the law enforcement personnel who are its customers and ensure
they are aware of the NGIC’s capability to support their gang-related
investigations and prosecutions. We analyzed NGIC’s Request for Information
workload to identify patterns or trends in the customers who are submitting
requests and the types of assistance that they are requesting.8 We found that
from January 1, 2006, to February 19, 2009, NGIC received requests for
assistance from 18 customer groups for 16 types of information.

       We found that NGIC has few regular users outside of the FBI,
GangTECC, and itself. These three organizations accounted for 64 percent of
all requests received by NGIC. The remaining 36 percent of the requests were
distributed among 15 other customer groups. With respect to the “state, local,
and tribal law enforcement” customer group, our analysis showed that few
requests came from these potential customers. This customer group
encompasses the majority of law enforcement agencies and personnel in the
United States – over 30,000 agencies and 700,000 sworn officers – and has the
greatest interactions with criminally active gangs in the United States. Yet,
despite its large size, this customer group made an average of only 3 requests
per year and submitted only 13 of the 213 total requests for information
received by NGIC from its inception in 2006 to February 2009.

      The following table illustrates NGIC’s top customers and the number of
requests for information made by these customers.




       8  A Request for Information is NGIC’s term for its customers’ inquiries and requests for
assistance from the Center’s analysts. NGIC creates a Request for Information each time it
receives a query from a customer by e-mail, telephone, or in person.


U.S. Department of Justice                                                                 v
Office of the Inspector General
Evaluation and Inspections Division
                           Table 1: NGIC Top Five Customers

                                                Fiscal Yeara

                                                                   Unknown
    Customer Group             2006     2007     2008      2009      Date          Total
    FBI                         14        4        20       26          7           71
    GangTECC                     0        0        31       16          0           47
    NGIC                         0        0        0        18          0           18
    State, Local, and Tribal     3        0        7           3        0           13
    Law Enforcement
    El Paso Intelligence         0        1        6           1        0            8
    Center (EPIC)b
    Total                       17        5        64       64          7           157
    aTwo of the fiscal years in this table are partial years. FY 2006 covers the period January
    1, 2006 to September 30, 2006, and FY 2009 covers the period October 1, 2008 to
    February 19, 2009.

    b EPIC is a multi-agency intelligence center that collects and disseminates information
    related to drug, alien, and weapon smuggling in support of field enforcement entities
    throughout the southwest region of the United States.

    Source: NGIC.

      In discussions with the NGIC and GangTECC personnel and other law
enforcement officials about why NGIC was not used more frequently by law
enforcement agencies, we found that NGIC was not perceived as an
independent, multi-agency center by many of the law enforcement personnel
we interviewed. It was repeatedly referred to as being “FBI-centric” in the
products it generates and the intelligence analysis that it provides.

      We also found that, in the 38-month period we examined, NGIC
responded to only about six requests a month. While this increased to about
17 requests a month in the first 5 months of FY 2009, that number is still
small given NGIC’s staffing of 20 intelligence analysts. NGIC management
attributed the small number of requests to the law enforcement community’s
unfamiliarity with NGIC – despite the Center’s attempts to advertise its
presence – and to NGIC personnel not recording all the requests they received.

      Although GangTECC’s operational guidance states that it is intended to
be a major user of NGIC’s gang intelligence services, its use remains limited.
We spoke with 12 GangTECC personnel about the kind of assistance they
might need from NGIC. Six members stated that GangTECC needs case
support for the investigations it coordinates, but they believe NGIC is more
oriented toward providing intelligence products. Some NGIC personnel also
U.S. Department of Justice                                                                 vi
Office of the Inspector General
Evaluation and Inspections Division
agreed that there was a benefit to NGIC analysts providing case support to
GangTECC. We found that when NGIC analysts have provided case support to
GangTECC, results have been favorable.

       We also found that while customer satisfaction surveys are routinely
distributed asking customers to rate NGIC intelligence products for quality and
value factors and to provide comments, NGIC is not using the results from
these surveys to assess its performance. By not analyzing these customer
comments, NGIC is missing an opportunity to more appropriately tailor its
products to meet the needs of its customers.

       Finally, in our interviews, the OIG found that NGIC’s intelligence
products are of limited usefulness to GangTECC personnel for their work.
Some GangTECC personnel expressed the opinion that NGIC intelligence
products were written only by the FBI representatives at NGIC and that the
products therefore reflected only the FBI’s data. In addition, one NGIC analyst
told the OIG that NGIC intelligence analysts were “writing history” rather than
producing leads that can be acted on. Some NGIC personnel were also
concerned about the length of time it took to disseminate their intelligence
products.

      We believe that the absence of a monitoring process to assess NGIC’s
customer satisfaction with products and services reduces NGIC’s ability to
share relevant gang-related information and provide useful support to law
enforcement personnel who are conducting gang investigations and
prosecutions. We recommend that:

       3. NGIC analyze the responses to past customer surveys on intelligence
          products to identify improvements that would make its intelligence
          products more useful to customers.

       4. NGIC expand its customer satisfaction surveys to include recipients of
          all of its products and services.

       5. NGIC analyze the types of information being requested and the time
          spent responding to each request type to better allocate its resources.

       6. NGIC track all requests for information that it receives.




U.S. Department of Justice                                                 vii
Office of the Inspector General
Evaluation and Inspections Division
GangTECC has insufficient resources to carry out its mission of
coordinating gang investigations and prosecutions.

       GangTECC has a broad, multi-purpose mission, but only 12 members
and no operating budget. Participating components are required to contribute
staff to GangTECC and pay their salaries out of their own budgets. The lack of
an operating budget has prevented GangTECC managers from taking actions
essential to its operations, including hosting case coordination meetings and
conducting effective outreach to the law enforcement community. Almost all
GangTECC members we interviewed, as well as the GangTECC Director and
Criminal Division officials, stressed that the lack of an operating budget is the
biggest hindrance for GangTECC, particularly when it prevents the GangTECC
personnel from fully participating in case coordination meetings.

      Coordination efforts. Organizing and participating in case coordination
meetings is central to GangTECC’s mission to identify common targets between
law enforcement agencies. GangTECC identifies opportunities to coordinate
gang investigations with multiple law enforcement agencies and attempts to
organize case coordination meetings to bring together federal, state, and local
investigators, analysts, and prosecutors to share information. Successfully
coordinated cases may enable charges to be brought against large,
geographically dispersed gang-related criminal enterprises.

      GangTECC has coordinated 12 cases that involved multiple law
enforcement agencies and jurisdictions, and these efforts resulted in better,
stronger cases for prosecution. GangTECC has also facilitated cooperation and
coordination in over 100 other cases in which investigators or agencies would
not initially share information on common targets with one another. Law
enforcement personnel we interviewed who used the GangTECC’s services
reported high levels of satisfaction and told us that case coordination was the
most helpful service that GangTECC could provide to the field.

       Notwithstanding the demonstrated value, the GangTECC Director told us
there have been at least five occasions when GangTECC has been unable to
host or even attend out-of-state case coordination meetings because it was
unable to fund travel costs. For example, GangTECC could not host case
coordination meetings for two cases involving the Latin Kings gang. As a result
of the limitations on GangTECC’s ability to execute its mission, opportunities to
better coordinate the Department’s efforts to combat gang crime have been lost.

      Outreach. Despite GangTECC’s efforts, the lack of a budget has
prevented GangTECC from adequately advertising its services. Among other
things, GangTECC is unable to sponsor field training, routinely attend
conferences of gang investigators, or provide materials at those conferences.

U.S. Department of Justice                                                viii
Office of the Inspector General
Evaluation and Inspections Division
      Communications. Lack of a budget also hampers GangTECC’s internal
and external communications. GangTECC members cannot e-mail documents
to each other or collectively store and track information on a shared drive.
Rather, GangTECC members have been manually tracking the assistance they
provide in logbooks. Also, without a dedicated server of its own, GangTECC
cannot assign unique e-mail addresses for its members to use for customer
contacts. Instead, members use the e-mail addresses from their parent
agencies.

GangTECC lacks critical staff to provide guidance on gang investigations.

       Another resource issue for GangTECC is that the Criminal Division has
not assigned prosecutors to work with GangTECC. GangTECC’s Concept of
Operations states that, in addition to the Criminal Division attorneys initially
assigned to GangTECC, “it is anticipated that the Gang Unit prosecutors will
work closely with GangTECC.” Although the GangTECC Director told the OIG
that the Center’s relationship with the Gang Unit has improved since the
summer of 2008, we found that Gang Unit attorneys still do not typically spend
time at GangTECC or attend any of GangTECC’s working meetings.
Furthermore, the two units occasionally have competing priorities with respect
to gang investigations. We believe that establishing written protocols to
mandate cooperation and coordination as envisioned for GangTECC and the
Gang Unit would diminish conflict and increase cooperation between the two
entities.

       In addition, the Criminal Division has not assigned an attorney to serve
as a liaison between GangTECC and the USAOs, which limits GangTECC’s
ability to coordinate with USAOs nationwide. Knowledge of USAO gang
caseloads and strategies would assist GangTECC and, more importantly, the
Department with case coordination and enhancement of gang-related
investigations and prosecutions. In addition, without the presence of an
attorney knowledgeable about gang investigations and prosecutions, it is more
difficult for GangTECC to resolve conflicts between different jurisdictions and
agencies.

      We concluded that, if the Department continues to view national anti-
gang efforts as a priority and GangTECC as the best way to coordinate multi-
agency anti-gang investigations and prosecutions, it must dedicate sufficient
resources to GangTECC to allow it to achieve its mission. Therefore, we
recommend that:

       7. The Department request a separate operating budget for GangTECC.



U.S. Department of Justice                                                  ix
Office of the Inspector General
Evaluation and Inspections Division
       8. The Criminal Division assign and locate at GangTECC at least one
          full-time experienced prosecutor, as discussed in GangTECC’s
          Concept of Operations.

       9. The Criminal Division and Governing Board direct GangTECC and the
          Gang Unit to jointly develop written protocols addressing: (a) how
          often and under what conditions GangTECC and the Gang Unit
          should meet to share information on gang-related cases; (b) what
          gang-related information should be regularly shared between the two
          entities; (c) criteria for GangTECC to follow in referring gang cases to
          the Gang Unit; and (d) a method for determining which component
          will coordinate directly with the field office and district USAO.

Deconfliction by GangTECC is not occurring as directed by the Deputy
Attorney General.

      Over its 3-year existence, GangTECC has not established itself as the
central coordination and deconfliction center envisioned by its Concept of
Operations.9 Although it was intended that GangTECC would “provide a
strong, national deconfliction center for gang operations,” neither GangTECC’s
own participating components nor USAOs are required to notify GangTECC of
newly opened gang cases. Consequently, GangTECC cannot effectively
deconflict the Department’s anti-gang activities on a national level.

       In the absence of a Department-wide requirement to notify GangTECC of
anti-gang activities, GangTECC began a pilot project with NGIC in November
2008 to deconflict newly opened gang cases. GangTECC members used
databases from their respective agencies to query newly opened gang cases and
compiled a list of subject names related to each case. NGIC analysts then
manually checked those names against the names of targets in four different
member components’ databases to identify potential overlapping investigations.
For example, for the FBI the initial pilot project examined over 500 subjects
identified in FBI-initiated cases and found 38 who were also under
investigation by another component. However, the manual process proved to
be too labor- intensive and the pilot project was suspended in April 2009.

      Nonetheless, GangTECC’s pilot deconfliction project demonstrated the
need for deconflicting gang investigations. The OIG believes a process that
requires newly opened gang-related investigations to be reported to GangTECC
would require a minimum investment of resources while improving
coordination of multi-jurisdictional gang investigations. We recommend that:

       9 The deconfliction process is intended to identify overlapping investigations to prevent
resources being wasted on redundant activities.


U.S. Department of Justice                                                                x
Office of the Inspector General
Evaluation and Inspections Division
       10.	   The Department require all participating GangTECC members
              report every newly opened gang-related investigation to GangTECC
              at the time the component opens the case.

       11.	   The Department direct that each USAO notify GangTECC of each
              newly opened gang case immediately upon opening the case.

GangTECC’s efforts to publicize priority gang targets have lagged.

        GangTECC is required to use information from NGIC and other sources
to identify priority targets and propose strategies to neutralize the most violent
and significant gang threats. According to the GangTECC Director, GangTECC
and NGIC first identified 13 priority gang targets in 2006. However, we found
little evidence during our review that the list was used outside the two Centers.

       In September 2008, GangTECC began to develop its Targeting
Prioritization Project in an effort to update the original list of 13 priority targets.
Using information from the 2009 National Gang Threat Assessment,
GangTECC completed its initial assessment in February 2009 which included
the identification of 17 priority gang targets. That information could be used
as a guide for law enforcement to focus resources, but, as of September 2009,
GangTECC had not released that information to the field. While the GangTECC
Director told us that he would like to identify priority targets on an annual
basis, GangTECC does not have a method for collecting the necessary gang
data from law enforcement agencies.

       GangTECC has developed a strategy to use information from Federal
Bureau of Prisons’ (BOP) databases to better target individuals who
communicate with federal inmates and may be involved in suspicious activity
such as multiple inmates who are classified in a Security Threat Group that
receive money from the same person.10 If criminal activity is suspected,
GangTECC investigators review the case and a formal referral package is sent
to the agencies involved.

      According to the GangTECC Director, this is significant because 4 of the
17 priority gang targets that GangTECC identified are prison gangs. However,
GangTECC has yet to develop strategies to address the remaining 13 priority
gang targets.




       10Inmates classified in Security Threat Groups include individuals such as street gang
members, suspected terrorists, and known bomb experts.


U.S. Department of Justice                                                             xi
Office of the Inspector General
Evaluation and Inspections Division
       GangTECC’s ability to accomplish its targeting mission is also hampered
because it has no analytical staff, only investigators. Without analysts,
GangTECC cannot independently conduct the analysis required to identify
priority targets, detect patterns that may be exploited by investigators and
prosecutors, or create strategic and tactical products for the field. NGIC’s
operational plans require it to provide this analytical assistance to GangTECC,
but we found the assistance only occurred on a limited basis. We recommend
that:

       12.	   GangTECC and NGIC (a) immediately disseminate information on
              the 17 gangs that they have identified as posing the greatest
              threat, and (b) develop a plan for periodically updating and
              disseminating information on high-threat gangs.

       13.	   GangTECC and NGIC develop law enforcement strategies and
              initiatives to address the additional identified priority targets.

       14.	   GangTECC and NGIC increase the use of NGIC’s analytical
              resources to support GangTECC’s targeting mission.

NGIC and GangTECC are not effective as independent entities.

      NGIC and GangTECC’s operational plans required them to co-locate so
that they would establish a relationship in which the resources of each Center
would be integrated with and fully utilized by the other. An effective NGIC and
GangTECC partnership would include deconfliction, identification of priority
gang targets, and sharing of gang information. While the Centers are located in
the same office suite in the same building, this co-location of NGIC and
GangTECC did not lead to the anticipated partnership. Our discussions with
NGIC and GangTECC personnel regarding their interactions found that
communication between the two Centers remains limited and ad hoc.

      In addition, while both NGIC and GangTECC advertise at conferences
and in their pamphlets that they provide investigators and prosecutors with a
“one-stop shopping” capability for gang information and assistance, this
capability has not been achieved due to various impediments. NGIC is
administered by the FBI while GangTECC is administered by the Criminal
Division. We found that differing leadership and management philosophies,
funding sources (dedicated funding versus funding through contributions by
member agencies), and investigative priorities have limited the Centers’ ability
to work together effectively.

     We believe that the Department should consider merging NGIC and
GangTECC into a single unit under common leadership. Merging the Centers

U.S. Department of Justice                                                     xii
Office of the Inspector General
Evaluation and Inspections Division
could improve their ability to support and coordinate the Department’s anti-
gang initiatives at a national level by reducing incompatibilities that result from
the current organizational alignment, creating a better joint operating
environment, and providing for a more reliable resource stream to support the
Centers’ mission. Therefore, we recommend that:

       15.    The Department consider merging NGIC and GangTECC.

CONCLUSIONS

       NGIC and GangTECC were created to be the Department’s national
intelligence and coordination mechanisms for gang-related investigations and
prosecutions. However, we found that after more than 3 years, the Centers
have not significantly improved the coordination and execution of the
Department’s anti-gang initiatives. Despite being co-located to facilitate
interagency cooperation, they are not effectively working together, which has
hindered their ability to make a significant impact on the Department’s anti-
gang activities.

      Most importantly, because of performance issues with a contractor and
technological challenges associated with establishing electronic bridges
between disparate state and local databases, NGIC has not established a gang
information database for collecting and disseminating gang intelligence as
directed by Congress.

       Furthermore, NGIC is perceived as predominately an FBI organization
that does not effectively share gang intelligence and information with other law
enforcement organizations. Overall, in the 38-month period we examined NGIC
received only 213 requests for information - about 6 requests a month.
Moreover, the preponderance of FBI and internal requests suggests that the
NGIC remains primarily focused on FBI investigations and has not become the
national resource on gang intelligence for federal, state, and local law
enforcement as envisioned. Also, NGIC’s customers report that NGIC’s
intelligence products have limited usefulness.

       In addition, because components and USAOs are not required to inform
GangTECC of their investigations and prosecutions, GangTECC cannot
effectively deconflict the Department’s gang-related activities as directed by the
Deputy Attorney General. Also, the Criminal Division has not filled an attorney
position intended to enable GangTECC to provide guidance to law enforcement
officials conducting gang investigations and prosecutions. Although
GangTECC has a broad, multi-purpose mission, it has no operating budget.
This has prevented GangTECC managers from taking actions essential to


U.S. Department of Justice                                                 xiii
Office of the Inspector General
Evaluation and Inspections Division
GangTECC operations, such as hosting case coordination meetings and
conducting effective outreach to the law enforcement community.

      We also found that, although the Centers were co-located to facilitate
interagency cooperation and gang-related information sharing, NGIC and
GangTECC have made only limited use of each other’s resources.
Furthermore, communication between the two Centers’ personnel occurs only
on an ad hoc basis.

       Because co-location of the Centers has proven insufficient to ensure that
collaboration between the Centers occurs, the OIG’s primary recommendation
is that the Department consider merging NGIC and GangTECC into a single
unit under common leadership. This action could improve the Centers’ ability
to support and coordinate the Department’s anti-gang initiatives at a national
level. Merging the Centers could reduce incompatibilities that result from the
current organizational alignment, create a better joint operating environment,
and provide for a more reliable resource stream to support the Centers’
missions.

       While we believe that merging the Centers would improve their ability to
assist gang investigations and prosecutions, merger alone is insufficient to
support the Department’s anti-gang initiatives. Major improvements are
needed in the areas discussed in this report if the Centers are to effectively
coordinate and support gang investigators and prosecutors nationwide. We
therefore make 15 recommendations to help improve NGIC’s and GangTECC’s
missions of assisting federal, state, and local law enforcement to address
violent regional and national gangs.




U.S. Department of Justice                                               xiv
Office of the Inspector General
Evaluation and Inspections Division
                                      TABLE OF CONTENTS




BACKGROUND ............................................................................................. 1


RESULTS OF THE REVIEW......................................................................... 12


CONCLUSION AND RECOMMENDATIONS .................................................. 42


APPENDIX I: METHODOLOGY OF THE OIG REVIEW ................................. 45


APPENDIX II: NGIC PUBLIC LAW ............................................................... 49


APPENDIX III: NGIC CONCEPT OF OPERATIONS (EXCERPT) ..................... 50


APPENDIX IV: GANGTECC CONCEPT OF OPERATIONS (EXCERPT) ........... 53


APPENDIX V: DEPUTY ATTORNEY GENERAL MEMORANDUM .................. 55


APPENDIX VI: GLOSSARY .......................................................................... 59


APPENDIX VII: DEPARTMENT’S RESPONSE .............................................. 61


APPENDIX VIII: OIG ANALYSIS OF THE DEPARTMENT’S RESPONSE ....... 63





U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                       BACKGROUND



Introduction

       Gangs pose a serious threat to public safety throughout the
United States. Gang membership and gang-related criminal activity have
increased over the past 10 years, and gang violence is requiring significant law
enforcement attention in many communities. Experts predict that these trends
will continue as gang-operated criminal networks expand. As of September
2008, there were an estimated 1 million gang members – an increase of
200,000 since 2005 – belonging to over 20,000 gangs that were criminally
active within the United States.11

       Neighborhood-based street gangs account for the majority of criminally
active gangs in the United States, with approximately 900,000 gang members
living in local communities nationwide and about 147,000 in prisons or jails.
The 2009 National Gang Threat Assessment said that gang members are
continuing to migrate from urban areas to suburban and rural communities,
thus expanding the gangs’ influence in those regions. According to the
Assessment, the percentage of U.S. law enforcement agencies reporting gang
activities within their jurisdictions increased from 45 percent in 2004 to
58 percent in 2008.

       In addition, the Assessment stated that criminal gangs commit as much
as 80 percent of the crime in many communities.12 Typical gang-related
activities include alien smuggling, armed robbery, assault, auto theft, drug
trafficking, extortion, fraud, home invasion, identity theft, murder, and
weapons trafficking. In addition, some U.S.-based gangs are working with
foreign-based gangs to facilitate criminal activities.

      The Department of Justice (Department) is combating the public safety
threat posed by national and international gangs with an anti-gang strategy
intended to achieve “maximum impact at the national level against the most
violent gangs in this country.”13 In January 2007, the Attorney General
announced that the Department had taken several steps to address gang
violence, including the establishment of three new entities: (1) the National

       11 National Gang Intelligence Center and National Drug Intelligence Center, 2009

National Gang Threat Assessment, November 2008, iii, 6.

       12   2009 National Gang Threat Assessment, iii.

       13 Department of Justice Fact Sheet: The National Gang Intelligence Center and the
National Gang Targeting, Enforcement and Coordination Center, November 28, 2007.


U.S. Department of Justice                                                                1
Office of the Inspector General
Evaluation and Inspections Division
Gang Intelligence Center (NGIC), established by statute, integrates the gang
intelligence assets of all DOJ agencies and other partner agencies; (2) the
National Gang Targeting, Enforcement, and Coordination Center (GangTECC),
an Attorney General initiative, serves as a central coordinating center for multi-
jurisdictional gang investigations; and (3) the Gang Unit, also an Attorney
General initiative, develops and implements strategies to attack the most
significant gangs and serves as the prosecutorial arm of the Department’s
efforts against violent gangs.14

      According to the Department’s Strategic Plan for fiscal years (FY) 2007 to
2012, the partnership between NGIC and GangTECC is one of the strategies
intended to address the prevalence of gangs and gang violence. In addition, the
Department co-located NGIC and GangTECC at a facility in Northern Virginia
in an attempt to facilitate interagency cooperation and to enhance gang-related
information sharing among federal, state, local, and tribal governments and
law enforcement agencies.15

       A joint NGIC and GangTECC publication described the partnership of the
two Centers as a means to provide investigators and prosecutors with “one-
stop shopping” for gang information and assistance. The combination of
NGIC’s intelligence capability with GangTECC’s coordination and targeting
function is also intended to provide federal, state, and local law enforcement
with access to nationwide intelligence and coordination of gang crime
investigations bringing together intelligence analysts, law enforcement agents,
and prosecutors to “attack the problems caused by gangs and gang-related
violence at all ends.”16 For example, investigators and prosecutors would be
able to use the nationwide databases of participating agencies to get
information on individual gang members, the relationships between gang
members, gang structures, and criminal activities.

Purpose

      The Office of the Inspector General (OIG) review examined the intelligence
and coordination activities of NGIC and GangTECC, and assessed the



       14   We use the term “Centers” when referring to NGIC and GangTECC.

      15 The Gang Unit has designated workspace in the same office suite shared by NGIC

and GangTECC in Northern Virginia but its staff primarily works at Criminal Division offices in
Washington, D.C.

       16 Department of Justice Fact Sheet: The National Gang Intelligence Center and the

National Gang Targeting, Enforcement and Coordination Center, November 28, 2007.



U.S. Department of Justice                                                                2
Office of the Inspector General
Evaluation and Inspections Division
effectiveness of their contributions to the Department’s anti-gang initiatives.17
Specifically, we examined whether each organization provided comprehensive
gang intelligence and coordination services to enhance gang investigations and
prosecutions in the field. In addition, we assessed the effectiveness of the
Department’s management and co-location of the Centers.

Scope

      We conducted our fieldwork from July 2008 through April 2009. We
examined NGIC’s operations from January 2006 through April 2009 (NGIC’s
establishment to the end of fieldwork) and GangTECC’s programs and activities
from June 2006 through April 2009 (GangTECC’s establishment to the end of
fieldwork).

        A detailed description of our methodology is contained in Appendix I.

NGIC

       NGIC was established by statute in January 2006 to “collect, analyze,
and disseminate gang activity information” from various federal, state, and
local law enforcement, prosecutorial, and corrections agencies.18 NGIC initially
was formed from an existing gang unit within the Criminal Intelligence Section
at the Federal Bureau of Investigation (FBI).19 NGIC’s mission is to provide a
centralized intelligence resource for gang information and analytical support to
law enforcement organizations. The FBI administers NGIC as a multi-agency
center where intelligence analysts from federal, state, and local law
enforcement work together to develop and share gang-related information. As
of June 2009, NGIC had 27 staff.

      In FY 2005, the year NGIC was established, its budget was $1.7 million.
In FYs 2006 through 2009, the NGIC budget ranged from $6.6 million to $6.8
million per year (Table 2).




        17   Our review does not examine the specific activities of the Criminal Division’s Gang
Unit.

        18   28 U.S.C. 534 note (2006)

        19The FBI converted existing resources from its Americas Criminal Enterprise/Violent
Crimes Intelligence Unit to establish NGIC.


U.S. Department of Justice                                                                    3
Office of the Inspector General
Evaluation and Inspections Division
         Table 2: NGIC Budget, FY 2005 Through FY 2009 (in Millions)
                   FY 2005      FY 2006      FY 2007    FY 2008      FY 2009
 NGIC Budget         $1.7             $6.8    $6.8        $6.6         $6.6
Source: NGIC FY 2007 – FY 2014 Spend Plan.

         According to its Concept of Operations (see Appendix III), NGIC’s mission
is to:

         support law enforcement agencies through timely and accurate
         information sharing and strategic/tactical analysis of federal,
         state, local, and tribal law enforcement intelligence focusing on the
         growth, migration, criminal activities, and associations of gangs
         that pose a significant threat to communities throughout the
         United States.

      The NGIC Concept of Operations established the following specific goals
for NGIC to accomplish its mission:

         1. Establish and maintain an FBI-facilitated multi-agency NGIC.

         2. Research, acquire, and implement technology to manage the exchange
            of gang information among federal, state, local, and tribal law
            enforcement agencies.

         3. Provide the law enforcement community with a “one-stop shop”
            mechanism for quick-checks or data calls to support law enforcement
            requests for information regarding suspected or known gangs and/or
            gang members.

         4. Conduct timely research and analysis which seeks to identify and
            neutralize emerging trends of the most violent gangs.

         5. Provide analytic support to law enforcement investigations,
            operational/intelligence initiatives, and issues of immediate concern.

         6. Provide intelligence support for GangTECC and other law enforcement
            agencies to deconflict and coordinate gang related investigations and
            prosecutions.

         7. Develop and maintain strong partner and customer relations to
            maximize analytical and information exchange efforts.




U.S. Department of Justice                                                       4
Office of the Inspector General
Evaluation and Inspections Division
NGIC Organization

      The NGIC Director position is designated as an FBI position and is filled
by a Special Agent who reports to the Section Chief of the Gang/Criminal
Enterprise Section at the FBI, which is within the FBI’s Criminal Investigative
Division. Of the two NGIC Deputy Director positions, one is permanently
designated as an FBI intelligence analyst position, while the other is rotated
among the agencies represented in the NGIC membership.20

      Agencies that currently contribute staff members to NGIC include the
FBI; Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF); Drug
Enforcement Administration (DEA); Federal Bureau of Prisons (BOP); National
Drug Intelligence Center (NDIC); United States Marshals Service (USMS);
Immigration and Customs Enforcement (ICE) of the Department of Homeland
Security; U.S. Customs and Border Protection (CBP) of the Department of
Homeland Security; Department of Defense (DoD) National Guard; and state
and local law enforcement. Figure 1 depicts the NGIC staffing and organization
structure.




        20 The rotating NGIC Deputy Director position is currently filled by an FBI senior

investigator whose time is spent at GangTECC, supporting GangTECC, and handling a
GangTECC caseload. There has not been an NDIC representative to NGIC since January 2009,
or a Law Enforcement Fellow since June 2008.


U.S. Department of Justice                                                           5
Office of the Inspector General
Evaluation and Inspections Division
                                Figure 1: NGIC Organization

                                     NGIC                       Executive
                                    Director                  Administrative
                                     (FBI)                      Assistant



            Principal Assistant
             Deputy Director
         (rotating-currently FBI)          Deputy Director                FBI Program
                                           (FBI-designated)                 Analyst




                 FBI Supervisory                                   FBI Supervisory
                   Intelligence                                      Intelligence
                     Analyst                                           Analyst



          10 FBI Intelligence                                              2 CBP Law
              Analysts                                                Enforcement Officers

          1 NDIC Intelligence                                          2 DEA Intelligence
           Analyst (Vacant)                                                Analysts

          2 ATF Intelligence                                            1 ICE Intelligence
              Analysts                                                       Analyst

                 1 USMS                                                1 BOP Intelligence
          Intelligence Analyst                                             Analyst


            1 DoD Liaison                                             1 Law Enforcement
               Officer                                                  Fellow (Vacant)


        Source: NGIC.

       Each intelligence analyst who works at NGIC is assigned specific gangs
to research and analyze, with a total of 20 different gangs assigned among the
20 intelligence analysts. The duties performed by NGIC analysts and other
personnel vary. NGIC employees may assist in investigations, respond to
requests for information and assistance from the Center’s customers, generate
intelligence work products, perform outreach to the law enforcement
community, deconflict investigations, serve as liaisons with other agencies,


U.S. Department of Justice                                                                   6
Office of the Inspector General
Evaluation and Inspections Division
work on special projects, work with the Law Enforcement Online (LEO) system,
and perform administrative duties.21

       The intelligence work products NGIC analysts produce include
intelligence assessments, intelligence bulletins, regional and national threat
assessments, information papers, link charts showing connections among
individuals and organizations, timelines of activities, and related analytical
products for operational support and intelligence purposes. The analysts also
make presentations at state gang investigator training conferences and provide
training to federal law enforcement agencies. In addition, NGIC responds to
requests for information from federal, state, and local law enforcement officials
on various gang topics.

GangTECC

       On February 15, 2006, the Attorney General announced plans to create a
new national anti-gang task force as part of his initiative to combat gangs and
gang violence. On June 26, 2006, GangTECC began operations and combined
the Department’s operational law enforcement components and the
Department of Homeland Security’s ICE component to identify, prioritize, and
target violent street gangs whose activities posed a significant multi-
jurisdictional threat. According to its Concept of Operations (see Appendix IV),
GangTECC is to coordinate overlapping investigations, ensure that tactical and
strategic intelligence is shared between law enforcement agencies, and serve as
a central coordinating and deconfliction center for law enforcement
investigations of gangs.22

      GangTECC personnel are contributed by participating Department
components and are subject to approval by the Criminal Division’s Assistant
Attorney General. Unlike NGIC, GangTECC is not authorized a separate
budget. Instead, costs are borne by the contributing agencies. As of April
2009, 17 GangTECC staff members worked at the Center full time.23 In




       21  LEO is a secure website hosted by the FBI that makes information available to the
federal, state, and local law enforcement entities that subscribe to it.

       22 GangTECC performs operational deconfliction, which involves determining whether

cases are connected to one another, in order to avoid duplication.

          23 Our use of the term GangTECC “members” refers to the representatives from the

participating agencies who are assigned to and working full time at the NGIC/GangTECC
facility.



U.S. Department of Justice                                                                7
Office of the Inspector General
Evaluation and Inspections Division
addition, three staff members were assigned to GangTECC on a detailed
basis.24

     In a July 2006 memorandum (see Appendix V), the Deputy Attorney
General identified the following four goals for GangTECC:25

       Assist the initiation of gang-related investigations and enhance
       existing investigations and prosecutions.

       Aid in coordination, deconfliction, and effectiveness of gang-related
       initiatives, investigations and prosecutions.

       Develop an enhanced understanding of the national gang problem
       and propose strategies and targets to neutralize the most violent,
       and significant threats.

       Coordinate with and support the National Gang Intelligence

       Center.


GangTECC Organization

       The Criminal Division oversees GangTECC operations, and the Director’s
position is filled by a senior attorney from that Division. The Deputy Director
position is a 2-year rotating position, to be filled by a participating component.
The current Deputy Director is from ATF. Agencies that contribute staff and
support to GangTECC include the Criminal Division, ATF, FBI, BOP, DEA,
USMS, and ICE. Figure 2 shows GangTECC’s organization.




       24 Two of the three detailees are individuals from the Department’s Leadership

Excellence and Achievement Program (LEAP), a part-time program that provides a series of
developmental experiences for DOJ employees. The third detailee is a law enforcement
Executive Fellow from a local police department.

       25 Paul J. McNulty, Deputy Attorney General, Memorandum for the Establishment of

the National Gang Targeting, Enforcement & Coordination Center (GangTECC), and Governing
Board of GangTECC and the National Gang Intelligence Center, July 25, 2006.


U.S. Department of Justice                                                             8
Office of the Inspector General
Evaluation and Inspections Division
                         Figure 2: GangTECC Organization




Source: GangTECC.

       GangTECC members identify potential targets for gang cases, deconflict
gang investigations, link investigations with common targets, and provide
cross-agency information to agents conducting gang investigations in the field.
Unlike NGIC analysts, GangTECC investigators typically do not produce written
products, as their work primarily focuses on coordinating gang-related
investigations. However, the BOP representative at GangTECC is a gang
intelligence officer who provides regular intelligence reports to support ongoing
and potential gang investigations.

U.S. Department of Justice                                                  9
Office of the Inspector General
Evaluation and Inspections Division
Access to Databases

      Although the Centers are co-located, they do not share a database. NGIC
and GangTECC members have network access only to the databases and
systems of their home agencies. In addition, all NGIC analysts can also access
the FBI’s databases and systems. However, neither NGIC nor GangTECC
members have independent access to the other member agencies’ databases
and systems. For example, an FBI member of NGIC who needs information
found only in an ATF database or system must go to an ATF member at NGIC
to obtain that information. The same is true at GangTECC. NGIC has
established partnerships with other federal, state, and local law enforcement
agencies that have gang-related information and, in some cases, has made
arrangements to access those agencies’ information.

GangTECC and NGIC Governing Board

      The July 2006 memorandum from the Deputy Attorney General
established a Governing Board to oversee the activities of the NGIC and
GangTECC.26 The Deputy Attorney General determined that the Governing
Board would be chaired by the Directors of both GangTECC and NGIC and
would meet, at a minimum, on a quarterly basis. According to GangTECC’s
Director, the Board has held quarterly meetings. Furthermore, until the April
9, 2009 meeting, no minutes were recorded for previous Governing Board
meetings.

       The Board is comprised primarily of high-level agency representatives
from Department components that contribute personnel and support to NGIC
and GangTECC. Other members include representatives from the Executive
Office for United States Attorneys (EOUSA), the Department’s Chief Information
Officer, the Subcommittee on Violent and Organized Crime of the Attorney
General’s Advisory Committee, the Attorney General’s Anti-Gang Coordination
Committee (AGCC), NDIC, and the Regional Information Sharing Systems
(RISS).27

     The Governing Board approves policies and procedures for NGIC and
GangTECC to ensure that they are consistent with the anti-gang policies

       26 On July 28, 2005, the Deputy Attorney General established a Governing Board only

for NGIC. The Deputy Attorney General’s July 2006 memorandum, which established
GangTECC, expanded the Governing Board to oversee both NGIC and GangTECC because of
the need for coordination between the entities.

       27 RISS is a national network comprised of six multistate centers operating on a

regional basis. Its mission is to support law enforcement efforts nationwide to combat illegal
drug trafficking, identity theft, human trafficking, violent crime, terrorist activity, and to
promote officer safety.


U.S. Department of Justice                                                                10
Office of the Inspector General
Evaluation and Inspections Division
established by the Attorney General, the Deputy Attorney General, and the
AGCC. In the spring of 2007, the Governing Board approved the Concepts of
Operations outlining NGIC’s and GangTECC’s goals and objectives.

Gang Unit

       In September 2006, several months after GangTECC’s creation, the
Attorney General created the Gang Unit in the Criminal Division to develop
strategies for prosecuting the most significant national and transnational gangs
in the country. The Criminal Division’s Gang Unit, originally called the Gang
Squad, is a group of experienced federal prosecutors who are responsible for
assisting local United States Attorneys’ Offices (USAO) in prosecuting gang
cases of national importance and coordinating with USAOs on legal issues and
multidistrict gang cases. The Gang Unit is also responsible for providing legal
expertise on federal domestic violent crime offenses and federal firearms and
explosives violations. According to the Criminal Division’s FY 2009 budget
documents, Gang Unit prosecutors are to “work hand-in-hand” with
GangTECC and NGIC in a “collective effort to target and dismantle the most
serious gang related threats nationwide.”28




       28While the Gang Unit’s work relates to our review of NGIC and GangTECC, we did not
review whether the Gang Unit’s activities are meeting its stated mission.


U.S. Department of Justice                                                          11
Office of the Inspector General
Evaluation and Inspections Division
                              RESULTS OF THE REVIEW



NGIC AND GANGTECC ARE NOT FULLY MEETING THE ROLES FOR
WHICH THEY WERE CREATED

       Three years after the creation of NGIC, it still has not
       developed a gang information database as directed by law.
       Further, due to its limited outreach efforts and the
       perception that the NGIC is FBI-centric, NGIC had received
       only 213 requests for assistance from law enforcement
       agencies in 3 years, an average of only 6 requests per month.
       Moreover, some agencies that routinely encounter gang issues
       in their work were not frequent customers of NGIC.

       Regarding GangTECC, we found that the lack of an
       independent budget has hindered it from implementing an
       effective program for coordinating gang investigations and
       prosecutions, or an effective outreach program. In addition,
       GangTECC did not implement a process to deconflict
       investigations until January 2009, 3 years after it was
       created.     The manual deconfliction process it then
       implemented proved unworkable and was discontinued within
       several months. Also, GangTECC lacks sufficient attorneys to
       provide guidance on gang investigations. After updating its
       list of priority gang targets, GangTECC still has not
       disseminated the information widely.


NGIC has not developed a gang information database as directed by
Congress.

      In funding NGIC, Congress directed that NGIC was to, among other
things, serve as an “information management mechanism for gang intelligence
on a national and international scope.”29 To accomplish this, NGIC developed
plans to create and maintain a library of gang identification information
accessible through the FBI’s LEO, an information sharing network. It also
developed plans to establish “electronic bridges” to federal, state, and local
information technology systems to connect disparate federal and state



       29 Conference Report, Making Appropriations for Foreign Operations, Export Financing,

and Related Programs for the Fiscal Year Ending September 30, 2005, and For Other Purposes,
November 19, 2004, H. Rept. 108-792.


U.S. Department of Justice                                                             12
Office of the Inspector General
Evaluation and Inspections Division
databases containing gang information or intelligence.30 As detailed below,
because of technological and operational problems, the information
management system and electronic bridges have not progressed beyond the
development phase.

Past Action to Obtain a Gang Information System

       On September 11, 2007, NGIC contracted with a technology provider to
design, deliver, and deploy a database of information on gangs (gang library),
software applications for searching and retrieving information in the library,
and computer servers. However, a year later, NGIC determined that the
contractor was unable to meet the contract’s requirements for the library and
other software applications. In addition, the contractor included software
features that NGIC did not need or request. The contractor attempted to
correct issues that NGIC identified in the software applications and the
management of the project. For example, the contractor replaced a program
manager in an effort to improve supervision of the project in order to meet its
milestone dates. On October 1, 2008, the contract was not renewed, although
some applications that were developed by the contractor may be able to be
modified and used by a new contractor, such as the partially developed gang
library. According to the FBI’s Information Technology (IT) personnel working
on this contract, approximately $2.7 million was paid out on this contract
before the decision was made not to renew it.

Recent NGIC Action to Obtain a Gang Information System

       On April 8, 2009, NGIC solicited input from IT companies for NGIC’s
intent to “design, develop, and implement an integrated NGIC Information
System.” The functional requirements specified by NGIC for its proposed
information system are identical to those specified by Congress when NGIC was
created: an “information management mechanism for gang intelligence on a
national and international scope.” NGIC officials said this solicitation is not
intended to award a contract to actually build a gang information database.
Rather, it is to determine whether IT companies thought there were technical
limitations in satisfying the functional requirements of an NGIC information
management system and answering any questions the companies might have
about the project.31

        30 NGIC informed us it does not intend to create a national gang intelligence database.

Instead, NGIC is developing an information system that will include its gang library and the
electronic bridges to access various gang databases maintained by the states or other federal
entities. For the purpose of this report, OIG is referring to NGIC’s information system when we
discuss the implementation of a gang information management database.

       31 Subsequently, a Request for Bids was offered to any contractor wanting to bid on the
project and a contract was awarded on September 1, 2009.


U.S. Department of Justice                                                              13
Office of the Inspector General
Evaluation and Inspections Division
Difficulties in creating electronic bridges to other gang databases

       In addition to overcoming the technical obstacles to creating an
information management system, establishing electronic bridges from NGIC’s
information management system to state or federal databases is complicated
by differing configurations, systems, and security requirements.32 These issues
must be overcome if the NGIC is to develop a cost-effective gang information
system accessible to stakeholders at the federal, state, and local law
enforcement levels. However, more than four years after the Department’s
Office of the Chief Information Officer provided a report to the Deputy Attorney
General, NGIC has still not addressed an important issue the report raised
regarding electronic bridging:

       [An] integrated system for anti-gang information need not be a
       single monolithic data warehouse . . . existing systems should be
       connected together and enabled to interoperate.

Unless NGIC obtains a technical solution for bridging between federal and state
databases, NGIC’s ability to use existing gang information will be limited.

       The FBI has stated that a major problem contributing to the technical
solution is that there is no standard nationwide definition of what constitutes a
“gang” or “gang member,” making uniform entry into a database problematic.
This issue also was recognized in the Office of the Chief Information Officer
report to the Deputy Attorney General, which stated that:33

       In addition, the NGIC should help drive community-based
       development of policy standards, from the definition of categories
       of gangs to criteria for assertion of gang membership.

      The lack of clarity in defining gangs and what constitutes gang
membership has resulted in states creating their own gang definitions and
disparate databases using various state standards of gang membership. For
example, Colorado’s standards for updating its database with a confirmed
“gang member” requires satisfying one of several factors that range from
admitting to gang membership, to committing a gang-motivated crime to
exhibiting gang membership (clothing, tattoos, mannerisms, etc.). On the other

       32 Report to the Deputy Attorney General, Feasibility Assessment of an Integrated Anti-

Gang Network for the Department of Justice, Office of the Chief Information Officer, July 15,
2005, 11-15.

       33 Report to the Deputy Attorney General, Feasibility Assessment of an Integrated Anti-

Gang Network for the Department of Justice, Office of the Chief Information Officer, July 15,
2005, 11-15.


U.S. Department of Justice                                                              14
Office of the Inspector General
Evaluation and Inspections Division
hand, Texas allows any state law enforcement agency to create its own gang
database and include information on individuals who meet two of five criteria.
The criteria are: (1) self-admission of criminal street gang membership;
(2) identification as a criminal street gang member by a reliable informant or
other individual; (3) corroborated identification as a criminal street gang
member by an informant or other individual of unknown reliability; (4) evidence
that the individual frequents a documented area of a criminal street gang,
associates with known criminal street gang members, and uses criminal street
gang dress, hand signals, tattoos, or symbols; or (5) evidence that the
individual has been arrested or taken into custody with known criminal street
gang members for an offense or conduct consistent with criminal street gang
activity.

       We believe that before NGIC creates a gang information system, it must
resolve the issue of defining the term “gang” and establish standards for what
constitutes gang membership. Without resolving these issues, NGIC runs the
risk of establishing electronic bridges to databases with questionable gang
information or generating incorrect gang intelligence based on information from
these databases.

       In summary, NGIC has yet to fulfill the requirement to create a
comprehensive national gang information database to support the
Department’s anti-gang initiatives. Moreover, although several states have
established databases containing gang intelligence information, the
development of the NGIC system has not progressed sufficiently for us to
evaluate whether it can resolve technological obstacles and build on these
existing databases.

Recommendations

       We recommend that:

       1. NGIC establish a working group composed of representatives from its
          member agencies and state and local law enforcement to identify
          methods for sharing gang-related intelligence across the law
          enforcement community. This working group should address, among
          other issues: (a) a definition of “gang” and criteria for identifying gang
          membership; and (b) data standards for entering gang information
          into databases

       2. NGIC create an implementation plan that identifies functional
          requirements with milestone dates to procure a gang information
          management system.



U.S. Department of Justice                                                    15
Office of the Inspector General
Evaluation and Inspections Division
NGIC is not effectively sharing gang intelligence and information.

       For the NGIC to effectively share gang intelligence and information, it
must both know the needs of the law enforcement personnel who are its
customers and ensure they are aware of the Center’s capability to support their
gang-related investigations and prosecutions. When it receives a query from a
customer by e-mail, telephone, or in person, NGIC creates a Request for
Information. We examined NGIC’s Request for Information workload to identify
patterns or trends in the customers who are submitting requests and the types
of assistance that they request. In our review, we found that the NGIC received
few requests for assistance, averaging less than six a month. We also found
that some agencies that routinely encounter gang issues in their work – such
as ATF – rarely used NGIC for gang-related intelligence products and services.

      In addition, we found that NGIC did not have an adequate process in
place to monitor customer satisfaction with its intelligence products and other
types of assistance. Finally, we found that GangTECC customers who used
NGIC’s intelligence products considered them to have limited usefulness.

NGIC has few regular users outside of the FBI, GangTECC, and itself.

      From January 1, 2006, to February 19, 2009, NGIC received requests for
assistance from 18 customer groups for 16 types of information. We analyzed
the customers and the information requests to identify trends. Because
GangTECC was intended to be one of the major users of NGIC’s services, we
also analyzed GangTECC’s requests. The results of our analysis follow.

Majority of NGIC customers consisted of three groups and some customer groups
are underrepresented or not represented at all.

      We analyzed the 18 customer groups that requested information from
NGIC (see Table 3). We found that the majority of NGIC’s work – 64 percent –
came from just three organizations: the FBI, GangTECC, and NGIC itself. We
also noted that GangTECC had submitted the second largest number of
requests for information to NGIC, but only recently began requesting
information on a regular basis from NGIC in FY 2008.34 (We further discuss
the interactions between NGIC and GangTECC later in the report.)

       The remaining 36 percent of requests for information from NGIC were
distributed among 15 other customer groups. The largest of these customer
groups is the state, local, and tribal law enforcement.


       34  According to GangTECC members, they submitted requests to NGIC prior to this
time, but the requests were not tracked GangTECC or NGIC.


U.S. Department of Justice                                                           16
Office of the Inspector General
Evaluation and Inspections Division
       According to NGIC management reports, NGIC personnel attempted to
advertise NGIC’s presence and establish points of contact among state and
local law enforcement by attending over 30 conferences, including 14 that were
specifically for state and local gang investigators. NGIC also serves as an
advisor to the National Alliance of Gang Investigators Association Governing
Board, which has allowed the Center to develop lines of communication to
approximately 20,000 state and local gang investigators. However, despite
NGIC’s outreach efforts, this customer group made an average of only 3
requests per year, submitting only 13 of the 213 (6 percent) total requests for
information received by NGIC from its inception in 2006 to February 2009.
Moreover, NGIC has received no requests for gang-related information from
tribal law enforcement officials, a group specifically identified by NGIC in its
operational plan as one with which it would share gang intelligence.

       NGIC management stated that there were two reasons for the small
number of requests received by the Center. The first reason was due to the law
enforcement community’s lack of familiarity with NGIC, despite its attempts to
advertise its presence. The second proffered reason was that some NGIC
personnel may not have been recording all of the requests that they received.
The NGIC Director stated that NGIC personnel receive many phone calls from
state and local law enforcement contacts, but what they do in response to
these phone calls may not be captured as a response to a request for
information. While we could not verify the quantity of work not properly
recorded, none of the NGIC analysts mentioned to us that this type of
telephone inquiry was a significant part of their workload.

      We also noted that the customers from whom NGIC has received few
requests for gang information include several components of the Department
that routinely address gang-related matters in their operations. For example,
the USMS has submitted just five requests and ATF only one. Similarly, the
High Intensity Drug Trafficking Areas (HIDTA), the National Drug Intelligence
Center (NDIC), and the Office of National Drug Control Policy (ONDCP) have
submitted one request each.35 The reasons for this low usage rate are
discussed below.



        35 The HIDTA program enhances and coordinates the drug control efforts of

participating local, state, and federal law enforcement agencies by providing resources to
combat drug trafficking in critical regions of the United States. HIDTAs are areas within the
United States. that are designated by the ONDCP Director as exhibiting serious drug trafficking
problems and harmfully impacting other areas of the country. NDIC is a Department
component whose mission is to coordinate, consolidate, and disseminate drug intelligence from
all national security and law enforcement agencies. ONDCP is a component of the Executive
Office of the President that establishes policies, priorities, and objectives for the Nation’s drug
control program.


U.S. Department of Justice                                                                  17
Office of the Inspector General
Evaluation and Inspections Division
               Table 3: NGIC Customer Requests for Information

                                                         Fiscal Yeara

                                                                        Unknown
    Customer Group                         2006 2007     2008    2009     Date         Total
    FBI                                     14       4     20     26           7         71
    GangTECC                                  0      0     31     16           0         47
    NGIC                                      0      0       0    18           0         18
    State, Local, and Tribal Law              3      0       7      3           0        13
    Enforcement
    El Paso Intelligence Center (EPIC)        0      1       6      1           0         8
    Federal and State Prosecutors             0      0       2      5           0         7
    Department of Homeland Security
                                              0      0       0      5           0         5
    (DHS)
    USMS                                      1      0       4      0           0         5
    International Law Enforcement             2      0       0      1           0         3
    BOP                                       0      0       0      1           1         2
    ATF                                       0      1       0      0           0         1
    GAO                                       0      0       0      1           0         1
    HIDTA                                     0      0       0      1           0         1
    Media                                     0      0       0      1           0         1
    Military                                  0      0       1      0           0         1
    NDIC                                      0      0       0      1           0         1
    ONDCP                                     0      0       1      0           0         1
    RISS                                      0      1       0      0           0         1
    Unknownb                                  1      4     12       3           6        26
    Total                                   21      11     84     83          14        213
     a Two of the fiscal years in this table are partial years. FY 2006 covers the period
     January 1, 2006 to September 30, 2006 and FY 2009 covers the period October 1, 2008
     to February 19, 2009.

     b Records in which the requester name field was blank or there was insufficient
     information to identify the requester are grouped as “Unknown.”

     Source: NGIC.

NGIC is not perceived as an independent, multi-agency center.

      In discussing why NGIC was not used more frequently by law
enforcement agencies, we found that NGIC is perceived by many law
enforcement personnel as being FBI-centric in the products it generates and
the intelligence analysis that it provides. NGIC and GangTECC personnel also
voiced their concerns about NGIC’s FBI-centric image.

U.S. Department of Justice                                                                18
Office of the Inspector General
Evaluation and Inspections Division
      Of the 14 NGIC analysts we interviewed, 4 referred to the NGIC as
“FBI-centric.” One of the four analysts said that the “law enforcement
community’s fear is [NGIC] is still part of the FBI . . . .” In addition, four
GangTECC personnel indicated the same perception. One of the four Gang
TECC personnel stated that “people [are] reluctant to share information with
NGIC because . . . [the] Center is essentially the FBI’s own gang intelligence
shop.” Some concerns expressed by law enforcement officials included that the
information sharing is not reciprocal and that intelligence products generated
by NGIC reflect only FBI information and not information from other agencies.

       Overall, we found that in the 38-month period we examined, NGIC
received only about 6 requests for information a month. The rate of
information requests increased to about 17 requests a month in the first 5
months of FY 2009. However, that number is still small given the NGIC’s
staffing of 20 intelligence analysts. Moreover, the preponderance of FBI and
internal requests suggests that the NGIC remains primarily focused on FBI
investigations and has not become the national resource on gang intelligence
for federal, state, and local law enforcement as envisioned. Until state and
local law enforcement agencies rely on the NGIC’s services, NGIC’s ability to
assist gang investigations will be limited and the Center’s resources will
continue to be underutilized.

Information NGIC provides is broad, but sometimes of limited use.

      We also examined the requests received by NGIC to identify the types of
information requested and any trends in the requests over time. During the
time period we examined, almost half of the 213 requests were for gang
background information (40), queries for BOP targeting packages (33), or
information on specific gang members (29).36 These requests were mirrored in
our interviews with NGIC customers, during which they stated that the types of
services that would be helpful to them were gang background information
(general and specific groups) and investigative analyses on specific groups and
trends observed. Table 4 shows the 16 categories of requests NGIC received.




       36 The requests related to queries for BOP targeting packages are generated by

GangTECC and is part of their priority targeting function by identifying inmates and their
associates outside the prison system who assist them in committing crimes.


U.S. Department of Justice                                                               19
Office of the Inspector General
Evaluation and Inspections Division
             Table 4: Types of Information Requested From NGIC




                                                                                          10/1/08 –


                                                                                                      Unknown
                                                            9/30/06




                                                                                           2/19/09
                                                            1/1/06­



                                                                      FY 2007


                                                                                FY 2008
                                                    TOTAL




                                                                                                        Date
     Request Type
     Gang Background Information                   40           5      3        11           20           1
     BOP Targeting Information                     33           0      0        24             9          0
     Specific Individual Information               29           0      0        12           17           0
     Case Support                                  18           3      3         0           11           1
     Training/Presentation                         16           1      0         4           10           1
     Consolidated Priority Organization Target
                                                   14           8      1         0             0          5
     Validation
     Product Reviews                               10           0      1         5             4          0
     EPIC Request                                    7          0      0         6             1          0
     FBI Management Taskings                         7          1      0         4             2          0
     Miscellaneous                                   4          0      1         1             1          1
     Briefings                                       3          0      0         0             3          0
     Deconfliction                                   3          0      0         0             3          0
     Graffiti Identification                         3          0      0         1             2          0
     Threat Assessment                               3          0      1         1             0          1
     Tattoo Identification                           2          1      0         1             0          0
     Gang-related Travel                             2          0      0         0             0          2
     Blank/ Unknown                                19           2      1        14             0          2
     Total                                        213         21      11        84          83          14
    Note: EPIC requests are requests that are initially received by EPIC and subsequently
    forwarded to NGIC for further processing. FBI management taskings include providing
    briefing points or gang summaries to senior FBI managers.
    Source: NGIC.

       We also examined the types of information requested to identify trends in
the services provided by NGIC and possibly help NGIC determine which
services it should concentrate on or discontinue. We found instances in which
NGIC no longer received or had only recently began to receive certain types of
requests. For example, we noted that during its first two years of operation,
NGIC received requests for Consolidated Priority Organization Target
validations, a program which compiles a list of major international drug
trafficking and money laundering organizations for the Department to target.
During the first year (2006), this category accounted for 38 percent (8 of 21) of
the requests for information received by NGIC. When asked about these
requests, NGIC management stated that all of these requests are generated by
FBI agents and are forwarded to NGIC which, in turn, forwards the requests to
the Special Operations Division for processing because NGIC is not a drug
U.S. Department of Justice                                                                                  20
Office of the Inspector General
Evaluation and Inspections Division
enforcement entity.37 An NGIC analyst was designated as a contact person for
Consolidated Priority Organization Target validations and was responsible for
assisting the requestor with processing the request. However, NGIC analysts
did not perform any analyses on these requests, and NGIC has not received
any validation requests since 2007.

        We also determined that during the 3 years we examined, over half of the
information categories included less than 10 requests. However, we found no
evidence that NGIC analyzed the requests it received and the amount of time
required to process each request, evaluated shifting trends in information being
requested, identified request types that merit the most attention, or realigned
their resources to address the most important categories. We believe NGIC
should examine the types of services that have been requested and the
resources expended on each type to identify those most appropriate for the use
of its limited resources.

Interaction between GangTECC and NGIC remains limited.

       Although GangTECC’s operational guidance states that it is intended to
be a major user of NGIC’s gang intelligence services, it only recently began to
request information on a regular basis from NGIC in early 2008 and its use of
NGIC information remains limited. Beginning on February 28, 2008, and
through the remaining 8 months of FY 2008, GangTECC submitted 31 requests
for information – the most for any customer in that fiscal year overall.38 Of all
the Requests for Information received by NGIC from January 1, 2006 to
February 19, 2009, GangTECC accounts for 22 percent (47 of 213).

       Although the number of requests submitted by GangTECC to NGIC has
increased, most of GangTECC’s requests (33 of 47, or 70 percent) were queries
for information for inclusion in the “BOP targeting packages” it prepares which
contain information on individuals outside of the BOP facility who
communicate with federal inmates and may be involved in suspicious


       37  FBI stated that prior to the creation of NGIC, the FBI’s Gang Unit processed
Consolidated Priority Organization Target validations. Upon creation of the NGIC, FBI entities
continued to forward these validations to NGIC even though NGIC was not a drug enforcement
entity. Ultimately, these requests were stopped. FBI added that it was not known at the
beginning, the number of requests that would be made, nor the requests that would become
obsolete as missions and objectives changed.

        38 Both GangTECC and NGIC personnel stated that requests were submitted prior to

this date but that neither Center tracked these requests. Using other information provided by
NGIC, the OIG was able to identify another nine instances in which there were joint efforts by
NGIC and GangTECC for the time period covering July 11, 2006 to July 15, 2008. These
instances were identified as talking points, briefings, tactical analysis, and travel for meetings.


U.S. Department of Justice                                                                   21
Office of the Inspector General
Evaluation and Inspections Division
activity.39 This type of request is handled between two NGIC and GangTECC
staff members. The remaining 14 requests (30 percent) were spread among 6
categories of information (Table 5).

                      Table 5: Types of Information GangTECC

                               Requested From NGIC

                                                       10/1/08 –
          Type of Request                   FY 2008     2/19/09       Total
          BOP Targeting Packages               24           9          33
          Specific Individual Information      4            1           5
          Gang Background Information          1            0           1
          Training Presentation                1            0           1
          Case Support                         0            2           2
          Deconfliction                        0            3           3
          Graffiti Identification              0            1           1
          Blank/Unknown                        1            0           1
          Total                                31           16         47
         Source: NGIC.

      We spoke with GangTECC personnel about the kinds of assistance for
which they look to NGIC. Six of 12 GangTECC employees stated that
GangTECC needs intelligence case support from NGIC, but they also told us
that they believed NGIC is more oriented to providing intelligence products that
are not tailored to a particular case. For example, case support could require
an analyst to review information gathered during the course of an investigation
and then conduct analyses to show how multiple gang cases fit together. The
GangTECC personnel we interviewed said they often do not find NGIC products
useful for this purpose. As Table 5 illustrates, GangTECC requests for case
support do not constitute a significant portion of GangTECC’s requests to
NGIC.

      In the instances where GangTECC received case support from NGIC
analysts, they said the results were favorable. The GangTECC Director stated
that an NGIC analyst did “a phenomenal job” working with intelligence analysts
from five or six other federal law enforcement agencies to obtain information on
a case and then briefed the GangTECC agent about it. Some NGIC personnel
also agreed that there was a benefit to NGIC analysts providing case support to

        39 The BOP representative to GangTECC requests information about those individuals

from the NGIC analyst who is designated as the contact point for processing this type of
request. The NGIC analyst queries databases and provides information found on the
individuals to the GangTECC BOP representative. The GangTECC BOP representative adds
information obtained from NGIC to the targeting package and is given to a GangTECC member
to review. Some targeting packages may be referred to other agencies for further investigation.


U.S. Department of Justice                                                               22
Office of the Inspector General
Evaluation and Inspections Division
GangTECC. For example, one analyst told the OIG that, as a result of what she
learned from the analyses that she performed on several investigations, she
plans to write an intelligence bulletin.

      The Directors of GangTECC and NGIC also told us that they had
regularly exchanged information since the inception of the Centers. However,
our discussions with the staffs of both Centers did not elicit information
indicating there was a significant direct exchange of information between the
analysts and investigators during the first years of the Centers’ operations.
Our analysis of FY 2009 workload, and our follow up interviews with analysts
and investigators, found that interactions had improved in FY 2009, although
the interactions remain limited and ad hoc in nature.

       Although GangTECC’s use of NGIC has increased, the
underrepresentation or absence of key law enforcement customers, and the
overall small number of requests received, calls into question NGIC’s
effectiveness to share relevant gang-related information and provide useful
support to law enforcement personnel who are conducting gang investigations
and prosecutions.

NGIC’s monitoring of customer satisfaction with its intelligence products is
deficient.

       We reviewed customer satisfaction surveys distributed by the FBI to
identify whether the above concerns were reflected in customers’ opinions
about the services provided by NGIC. The OIG found that NGIC had no process
for monitoring the survey responses to determine whether its intelligence
products are meeting customer’s needs. In addition, we found that the surveys
NGIC administered only cover the intelligence products generated by NGIC and
not the other services that it provides.

       The FBI survey asks NGIC customers who have either requested an
intelligence product or received an intelligence product generated by NGIC
analysts to rate the product for quality. They rate such factors as whether the
product was timely, relevant, clear, and reliable – on a scale of 1 (strongly
disagree) to 5 (strongly agree). Customers also are asked to rate the value of
the product, including whether the product (1) helped close an intelligence gap,
(2) changed an investigative priority, (3) resulted in a more informed decision
on an investigation, or (4) identified new information on a pending
investigation.

NGIC did not use customer responses to assess its own performance.

      Our analysis of 511 customer satisfaction surveys returned to NGIC
found that customers expressed overall satisfaction with NGIC intelligence

U.S. Department of Justice                                                 23
Office of the Inspector General
Evaluation and Inspections Division
products.40 For the factors of quality and value, NGIC averaged a score of 3.5
out of 5 for the 511 surveys. However, we noted that 333 (65 percent) of the
responses came from recipients in NGIC’s parent agency, the FBI, while
non-FBI customers accounted for only 41 or 8 percent of the customer surveys
returned. The surveys did not identify the originating entity in 137 instances
(27 percent).

      We also found that NGIC does little with comments made on the
customer satisfaction surveys. Specifically, the Deputy Director told us that
NGIC has “followed up on several forms on occasion” but has not attempted to
analyze the information customers have included in comments on the survey
forms. For example, one survey on the topic of gang involvement in mortgage
fraud schemes stated that the “intelligence assessment was very basic and
lacked specific information for identifying mortgage/real estate transactions
that may be gang related.” We believe that NGIC could have issued a
supplemental product to address the concerns of this FBI customer, but it did
not. An NGIC official said they do not have adequate resources to analyze
customer comments.

NGIC intelligence products have limited usefulness to GangTECC personnel.

      Because GangTECC was intended to be a major user of NGIC’s services,
we asked GangTECC personnel which NGIC intelligence products they had
used during the course of their work. Products provided by NGIC addressed a
variety of issues such as prison gangs, identifying new gang tattoos, the
methods gangs use to incorporate religion as part of the gang identity, conflicts
between rival gangs, mortgage fraud schemes that a particular gang was
involved in, and gang involvement in the sexual exploitation of women and
children. Four GangTECC investigators stated that they were not familiar with
any of NGIC’s intelligence products. Of the remaining six investigators, two
were aware of NGIC’s products, but described them as too theoretical, broad,
and historical to provide operational information. Only four investigators
reported using NGIC’s products to obtain background information about a
particular gang.

       One NGIC analyst told the OIG that NGIC intelligence analysts were
“writing history” rather than producing leads that can be acted on. He said the
analysts were telling the readers about previous cases rather than analyzing


       40 Surveys are included as part of each product and each person who obtains a copy of

an NGIC intelligence product may submit a survey response. Therefore, there are more survey
responses on file than there have been products issued. Further, because LEO did not provide
us with information on the number of intelligence products downloaded, we do not know how
many customers received them.


U.S. Department of Justice                                                            24
Office of the Inspector General
Evaluation and Inspections Division
transactions that are occurring and recommending action, such as establishing
a wiretap.

       Some GangTECC personnel stated that NGIC intelligence products were
written only by the FBI representatives at NGIC and that the products therefore
would only reflect the FBI’s data. A GangTECC member gave an example that
if he asked NGIC for information about cases opened on the MS-13 gang, his
experience was that NGIC might provide only those cases the FBI worked on.
An FBI GangTECC member commented that since most of the NGIC products
he receives come from the FBI analyst at NGIC, he is not sure if information
from other agencies is included.

        In addition to the usefulness of NGIC’s intelligence products, some NGIC
personnel we interviewed were also concerned about the time it took NGIC to
disseminate its intelligence products. One of the NGIC members told us that
“it is impossible for the FBI analysts to get a product out that’s timely because
there are so many review levels.” He provided an example where it had taken
NGIC 3 months to issue an assessment of a prison escape that involved gang
members. An NGIC analyst from the FBI stated that while the NGIC analysts
had been told intelligence products are important, their reports may sit on a
reviewer’s desk for weeks. She cited an example in which a product was held
up because the “title didn’t work.” The analyst said that as a result, the report
sat on a reviewer’s desk for 6 weeks when the matter “could have been resolved
in 10 minutes.”

      The FBI stated that, as mandated by the FBI’s Directorate of Intelligence,
NGIC managers must allow time for their analytical products to be reviewed
and edited by entities within the Directorate of Intelligence, which can delay
dissemination. However, we noted that this review process does not apply to
the analytical products generated by personnel of other member agencies.

      The absence of an effective process to assess customer satisfaction with
NGIC products and services, to assess the usefulness of other services NGIC
provides, or to assess other unmet customer needs reduces NGIC’s ability to
share relevant gang-related information and provide useful support to law
enforcement personnel who are conducting gang investigations and
prosecutions.

Recommendations

       We recommend that:

        3. NGIC analyze the responses to past customer surveys on intelligence
           products to identify improvements that would make its intelligence
           products more useful to customers.

U.S. Department of Justice                                                 25
Office of the Inspector General
Evaluation and Inspections Division
        4. NGIC expand its customer satisfaction surveys to include recipients
           of all of its products and services.

        5. NGIC analyze the types of information being requested and the time
           spent responding to each request type to better allocate its resources.

        6. NGIC track all requests for information that it receives.

GangTECC has insufficient resources to carry out its mission of
coordinating gang investigations and prosecutions.

       When it was established, GangTECC was provided with only eight
members, no operating budget, and a broad, multi-purpose mission.41
Because GangTECC does not have an operating budget, participating
components are required to assign staff to GangTECC and pay their salaries
out of their own budgets. The lack of an operating budget also has prevented
GangTECC managers from taking actions essential to implementing the Center.
For example, GangTECC cannot fund travel to case coordination meetings for
its member nor representatives from state and law enforcement agencies
working on the case. Also, GangTECC has been unable to implement
electronic communication and tracking capabilities or fund its Executive Fellow
program which provides opportunities for state and local law enforcement
officers to enhance their skills by working with federal law enforcement
agencies for a 6-month period.42 Communicating with state and local agencies
is vital to GangTECC’s ability to coordinate cases, collect gang intelligence, and
identify priority targets. Moreover, GangTECC’s outreach and training efforts
have been hindered due to a lack of funding. Officials in the Criminal Division
and the Office of the Deputy Attorney General agreed that lack of an operating
budget is GangTECC’s biggest problem. The impact that the lack of funds has
on GangTECC’s ability to execute its broad mission is detailed below.

GangTECC’s case coordination efforts are limited by the lack of an operating
budget.

       Organizing and participating in case coordination meetings is central to
GangTECC’s mission. Members of GangTECC identify opportunities to link
local agency gang investigations by reviewing open cases to compare targets

       41 The Deputy Attorney General’s July 26, 2006, memorandum specified that at least

seven experienced agents from the Department’s components be assigned to GangTECC. The
eighth member was to be from ICE.

        In June 2009, ATF assigned one of its grant-funded Executive Fellows to work at
       42

GangTECC.


U.S. Department of Justice                                                           26
Office of the Inspector General
Evaluation and Inspections Division
and to determine whether other components have initiated or begun building
cases on the same targets. After linking related investigations, the Center
attempts to organize case coordination meetings to bring together federal,
state, and local investigators, analysts, and prosecutors to share information.
If successful, the coordinated cases bring charges against large, geographically
dispersed gang-related criminal enterprises.

       For example, GangTECC identified that violent national street gang
investigations being conducted by federal and local agencies from the east and
west coasts were connected. GangTECC arranged for ATF to fund travel
expenses for a federal agent and local law enforcement officers from the east
coast to meet with the federal and local prosecutors, federal agents, and local
officers on the west coast. As a result, the agents located the primary gang
member who was directing the migration of the west coast gang to the east
coast. According to an investigator involved in this case, GangTECC served an
integral role in coordinating the exchange of information between investigators
on both coasts in an investigation that subsequently resulted in almost 30
conspiracy indictments under the Racketeer Influenced and Corrupt
Organizations Act (RICO).

       During its 3-year existence, GangTECC has coordinated 12 cases
involving multiple law enforcement agencies and jurisdictions. In addition,
according to GangTECC’s Director, GangTECC also has facilitated cooperation
in over 100 cases where investigators or agencies would not initially share
information on common targets with one another. Law enforcement personnel
we interviewed who had used GangTECC’s services reported high levels of
satisfaction and told us that case coordination was the most helpful service
that the Center could provide to the field. Ten of the customers we interviewed
stated that they used the information provided by GangTECC to coordinate
with other agencies. As a result, they identified instances in which the same
individual was the subject of investigations in multiple jurisdictions.

      Many customers commented that they did not previously know of the
connections identified by GangTECC and would not have discovered them
without GangTECC’s assistance. As gang investigations expand into larger,
cross-agency investigations and prosecutions, GangTECC’s USMS
representative told us that gang investigators in the field have received critical
information about gang members who are wanted suspects, resulting in the
apprehension of fugitive gang members.

       However, GangTECC’s efforts have been hindered by resource
limitations. The GangTECC Director told us there have been at least five
occasions when the Center has been unable to host, or even attend, case
coordination meetings out of state because it was unable to fund travel costs.
For example, GangTECC could not host case coordination meetings for two

U.S. Department of Justice                                                   27
Office of the Inspector General
Evaluation and Inspections Division
cases involving a national gang. In other instances, GangTECC could not send
representatives from all the components involved in a case against another
national gang to a coordination meeting, nor could they send representatives
from the state and local law enforcement agencies that were involved in the
case. We were informed that videoconferencing or conference calls would not
suffice for these meetings because the participants need case files available for
review in order to share and exchange information about their investigations.
Although some of the GangTECC representatives are allocated small budgets
from their home components for gang-related cases, they are typically only
permitted to use the funds for their home components’ cases.

      Almost all of the 12 GangTECC members we interviewed, as well as the
GangTECC Director and Criminal Division officials, stressed that lack of an
operating budget is the biggest hindrance for the Center, particularly when it
prevents the Center’s personnel from fully participating in case coordination
meetings. The Criminal Division’s FY 2009 congressional budget request
recognized this problem, stating:

       Travel to various locations for investigative case coordination
       meetings, conferences and operational planning is a basic and
       essential need for the success of GangTECC. Currently, this travel
       is unfunded and being paid by each of the participating
       components when and if they can afford it.

      As a result of the budgetary limitations on GangTECC’s ability to execute
its mission, opportunities to better coordinate the Department’s efforts to
combat gang crime have been missed.

Lack of technology hampers GangTECC’s communications.

       Although GangTECC members told us that cross-agency information
sharing is relatively easy to accomplish given their proximity to each other,
GangTECC members cannot e-mail documents to each other, use a uniform
e-mail system to exchange information across components, or collectively store
and track information on a shared drive. GangTECC members also cannot
send Center-wide e-mails and electronic information to its customers because
there is no common e-mail system. Instead, GangTECC members must use
servers from their respective agencies to communicate electronically within
GangTECC as well as to its customers.

      The lack of a dedicated server inhibits GangTECC’s ability to collectively
store and track information. Rather, GangTECC members have been manually
tracking the assistance they provide in hard copy logbooks. The GangTECC
Director told us that having a common computer system or developing a
method for existing system to communicate would greatly assist the Center in

U.S. Department of Justice                                                  28
Office of the Inspector General
Evaluation and Inspections Division
its intelligence sharing and case coordination duties. In addition, almost every
regional and national gang has a large presence on the Internet through social
networking and private websites and GangTECC lacks funding for equipment
to exploit this potential source of information on gangs.

GangTECC is unable to engage in needed outreach efforts.

       We found that even though GangTECC has made some efforts, its
services are not adequately advertised. GangTECC’s operational plans state
that its outreach efforts “will utilize various methods to inform federal, state,
and local law enforcement and prosecutors of the resources available to them
through GangTECC.” The plans further specify that outreach “includes
sponsoring domestic and international training, providing materials at national
and regional conferences, and posting information on law enforcement websites
and publications.” In accordance with its operating plan, GangTECC has
conducted several training sessions or presentations since its inception at a
variety of venues, including the California Gang Investigators Association, the
National District Attorneys Association, Project Safe Neighborhood conferences,
the National Sheriffs’ Association, the Virginia Department of Corrections, and
the Los Angeles Sheriff’s Department.

       Nonetheless, field components generally remain unaware of GangTECC’s
services. Only 30 percent (7) of the GangTECC customers we interviewed told
us that other agents or officers in their organization were aware of the Center.
Four others said they believed that only those who worked gang investigations
knew about GangTECC. At least two of the customers who received assistance
from GangTECC (after the Center contacted their offices) still did not know
what other types of services were provided by GangTECC. Another customer
said “GangTECC is a good concept, but they need better communication with
the field and better advertising as to what they can offer the field.”

      We found that GangTECC members are aware that the Center is not well
known. Most GangTECC members we interviewed (8 of 12) also told us that
only some in the law enforcement community were aware of the Center. Half of
them (4 of 8) stated that those in the law enforcement community that were
aware of GangTECC probably did not know what assistance GangTECC could
provide. In fact, four believed the law enforcement community was not aware
of GangTECC at all and that GangTECC needed to “advertise” more.

      Forty percent of the GangTECC customers we interviewed stated that
sending information via e-mail and making presentations at conferences and
meetings is the best way for GangTECC to advertise its services. However,
GangTECC’s ability to sponsor training and produce conference materials to
conduct outreach is hindered by the lack of an operating budget. Although
GangTECC members have made presentations at approximately 60 meetings

U.S. Department of Justice                                                 29
Office of the Inspector General
Evaluation and Inspections Division
and conferences, the Center has been unable to sponsor any “domestic and
international training,” as mandated by its Concept of Operation. Nor does
GangTECC have money to produce materials for distribution at national and
regional conferences.43

      In late 2007, the Criminal Division agreed to make $25,000 available to
GangTECC for outreach efforts in response to the Director’s request for funds to
cover training materials and related expenses for advertising at gang
conferences. However, this small one-time disbursement is not sufficient to
support GangTECC’s long-term need to develop its training and outreach efforts.

       In summary, the lack of an operating budget has hindered GangTECC’s
ability to function as the Department’s anti-gang central coordination center.
It has limited the Center’s participation in case coordination meetings and
prevented it from directly supporting field operational costs. Internally, the
lack of its own budget has prevented GangTECC from funding its state and
local law enforcement Executive Fellow program, limited its electronic
communication and tracking capabilities, and limited its outreach efforts to
other federal, state and local law enforcement agencies.

      If GangTECC is to provide the services described in its operational plans,
the Center will need a dedicated, annual operating budget. Other multi-agency
enforcement centers, such as the Special Operations Division, EPIC, and
OCDETF, have agency-sponsored funds made directly available to them that
allow them to carry out their missions.44 If the Department continues to view
national anti-gang efforts as a priority and GangTECC as the best way to
coordinate multi-agency anti-gang efforts, we believe it must seek more
resources for the Center to allow it to fully achieve its mission.




      43 NGIC has included information about GangTECC in some of its pamphlets and

brochures.

        44 EPIC is a multi-agency intelligence center that collects and disseminates information

related to drug, alien, and weapon smuggling in support of field enforcement entities
throughout the southwest region.


U.S. Department of Justice                                                               30
Office of the Inspector General
Evaluation and Inspections Division
Recommendation

       We recommend that:

        7. The Department request a separate operating budget for GangTECC.

GangTECC lacks critical staff to provide guidance on gang investigations.

       GangTECC’s Concept of Operations states that, in addition to the
Criminal Division attorneys initially assigned to GangTECC, “it is anticipated
that the Gang Unit prosecutors will work closely with GangTECC.” According
to the Criminal Division’s FY 2009 budget request, Gang Unit prosecutors are
to “work hand-in-hand” with GangTECC and NGIC “to comprehensively target
and coordinate multi-jurisdictional gang investigations and prosecutions and
develop national strategies to disrupt and dismantle these dangerous
organizations.” However, we found that the Criminal Division has not assigned
prosecutors to GangTECC and there are few instances in which GangTECC and
the Gang Unit worked together.

The Criminal Division has not assigned prosecutors to GangTECC.

       GangTECC’s operational plan states that, in addition to providing a
Director to GangTECC, the Criminal Division will assign one trial attorney on a
full-time basis at the Center and that “additional prosecutors may be assigned to
join GangTECC as the need arises.” The trial attorney’s duties were to (1) advise
the agency representatives on legal matters, (2) assist the Director in his or her
duties, and most importantly, (3) serve as an additional liaison between
GangTECC and USAOs nationwide. The absence of an attorney to fulfill the
liaison role between GangTECC and the USAOs has limited the Center’s ability
to coordinate with USAOs nationwide. A prosecutor’s knowledge of USAO gang
caseloads and strategies would assist GangTECC with case coordination and
help GangTECC in resolving conflicts between different jurisdictions and
agencies. The Criminal Division helped write and adopt the GangTECC
operational plan. However, as of April 2009, the Criminal Division had not filled
the trial attorney position or provided any other attorneys to GangTECC.

       The presence of an attorney at GangTECC also would facilitate better
interaction with the Criminal Division’s Gang Unit. In the summer 2008,
GangTECC members reported to OIG that it had very little interaction with
Gang Unit attorneys. The Gang Unit Chief explained that interaction between
Gang Unit prosecutors and GangTECC was hampered by the Gang Unit’s
shortage of prosecutors and a large caseload that requires Gang Unit attorneys
to travel nationwide. As a result, Gang Unit prosecutors are not routinely
available to work with GangTECC investigators. In May 2009, the GangTECC
Director told the OIG that the Center’s relationship with the Gang Unit had

U.S. Department of Justice                                                 31
Office of the Inspector General
Evaluation and Inspections Division
improved from a year earlier. For example, he said Gang Unit attorneys are
now working with GangTECC members to coordinate several cases. However,
Gang Unit attorneys still do not typically spend time at GangTECC, attend any
of GangTECC’s staff meetings, and the two units occasionally have competing
priorities.

       According to the Gang Unit Chief, the Unit focuses on four particular
gangs. In contrast, GangTECC investigates many different gangs, and
GangTECC members told us that the Gang Unit may not always be interested
in taking cases involving gangs other than the four it targets. We also found
that there were no protocols that specify the nature of the coordination
between GangTECC and the Gang Unit. GangTECC and the Gang Unit both
have responsibilities related to the prosecution of gang cases and both entities
receive requests for assistance with gang prosecutions from federal agents in
the field. However, neither component has agreed on specific criteria to
determine which gang cases should be referred to the Gang Unit. GangTECC
personnel cited a problem in one case in February 2009 when GangTECC
referred a national gang case to the Gang Unit for prosecution. Prior to
accepting the case, the Gang Unit limited GangTECC’s communication with the
district’s USAO staff that GangTECC found overly restrictive. We believe that
GangTECC and the Gang Unit should develop written protocols that detail how
the two groups will cooperate and coordinate their efforts.

       In addition, four of the GangTECC customers (investigators) we
interviewed said they needed guidance from prosecutors to get their cases
prosecuted and suggested that GangTECC should facilitate their contact with
an attorney. The Senior Counsel to the Criminal Division Assistant Attorney
General told us the prosecutor’s position in GangTECC had never been filled
due to a lack of resources. The OIG believes that the addition of prosecutorial
resources at GangTECC will enhance the Center’s ability to assist with gang
investigations and ultimately prosecutions.

Recommendations

       We recommend that:

       8. The Criminal Division assign and locate at GangTECC at least one
          full-time experienced prosecutor as discussed in GangTECC’s Concept
          of Operations.

       9. The Criminal Division and Governing Board direct GangTECC and the
          Gang Unit to jointly develop written protocols addressing: (a) how
          often and under what conditions GangTECC and the Gang Unit
          should meet to share information on gang-related cases; (b) what
          gang-related information should be regularly shared between the two

U.S. Department of Justice                                                32
Office of the Inspector General
Evaluation and Inspections Division
          entities; (c) criteria for GangTECC to follow in referring gang cases to
          the Gang Unit; and (d) a method for determining which component
          will coordinate directly with the field office and district USAO.

Deconfliction by GangTECC is not occurring as directed by the Deputy
Attorney General.

       GangTECC is not serving as a national anti-gang deconfliction center as
directed by the Deputy Attorney General. According to the GangTECC
Director, effective deconfliction is required to avoid duplication of effort and to
ensure resources are not wasted. Over its 3-year existence, however,
GangTECC has not established itself as the central coordination center
envisioned by its own Concept of Operations, which states that the Center will
“provide a strong, national deconfliction center for gang operations.” Moreover,
the Department has not established policy to require that field component
offices deconflict their gang cases through GangTECC, and few offices choose
to do so. The following sections discuss GangTECC’s attempts to implement an
operational deconfliction process.

Participating GangTECC components and USAOs are not required to deconflict
through GangTECC.

       None of GangTECC’s participating components require their field offices
to notify GangTECC about newly opened gang cases. One component proposed
an internal policy to require deconfliction with GangTECC. An FBI GangTECC
member told us in March 2009 he drafted a policy that mandates FBI field
offices use GangTECC to deconflict gang cases. The new policy would require
field FBI investigators to notify GangTECC of new gang cases by including the
FBI GangTECC representative in their electronic communications to FBI
Headquarters. However, the proposed policy remains under review by FBI
Headquarters officials. None of the other GangTECC components has
implemented, or even proposed, a similar requirement.

       We also noted that each of the 94 USAOs has designated an Anti-Gang
Coordinator to provide leadership and focus to anti-gang efforts at the district
level.45 Although the Anti-Gang Coordinators work with local law enforcement
and others to develop a comprehensive anti-gang strategy for their districts,
they do not work with GangTECC – the Department entity created to develop
that type of strategy. As a result, GangTECC is not notified when USAOs open
or close gang cases.

       45 As part of the Department’s anti-gang efforts, the Attorney General directed each

United States Attorney to appoint an Anti-Gang Coordinator and to develop district-wide anti-
gang strategies in January 2007. During 2008, the districts updated their anti-gang strategies
and provided them to EOUSA.


U.S. Department of Justice                                                              33
Office of the Inspector General
Evaluation and Inspections Division
       Because neither the components’ field offices nor the USAOs notify
GangTECC about their gang investigations and cases, the Center cannot
effectively deconflict the Department’s anti-gang activities on a national level.
We believe that requiring participating GangTECC components to notify
GangTECC of newly opened gang cases in the field would be a significant step
toward GangTECC addressing its deconfliction mission for the Department.

GangTECC suspended its pilot project to deconflict gang investigations.

      In the absence of a Department requirement to notify GangTECC of anti-
gang activities, in November 2008 GangTECC began a pilot project with NGIC
to deconflict newly opened gang cases. The deconfliction process was intended
to identify overlapping investigations and meet GangTECC’s deconfliction
responsibility. As described earlier, NGIC has not developed a gang database
and therefore does not have the technology to query multiple data sources at
once.

      Instead, in the pilot project GangTECC members and NGIC analysts
manually queried several databases. To accomplish this, GangTECC members
generated lists every 30 days that contained the names and identifying
information of targets of gang-related investigations opened in the prior 60
days. Each GangTECC member retrieved this information by querying their
home agencies’ databases. The lists of names generated were then provided to
an NGIC analyst who ran the names through the databases of each participating
component at NGIC.

       The FBI was the first component to
                                                      GangTECC Deconfliction
deconflict its gang targets for the pilot
                                                       Efforts (FBI Cases Only)
project. The initial FBI list contained over
                                                   221 hits:
500 names of individuals for whom the FBI
                                                       94 from DEA
had initiated investigations. When the NGIC            65 from USMS
analysts checked those names against the               50 from ATF
names of targets in four different member	             12 from ICE
components’ databases, the analysts                38 significant names
obtained 221 “hits” (see text box). The
analysts then informed the members of the respective components about the
“hits.” After a member from each component reviewed their respective
component’s cases, GangTECC began eliminating duplicates and aliases from
the list. Through this exercise, GangTECC and NGIC analysts were able to
identify that the FBI was investigating at least 38 gang targets who were also
being investigated by another component or federal agency.

      Although the manual deconfliction process identified some duplicate
investigations, the GangTECC Director said it was too labor intensive.
Consequently, he suspended the pilot project in April 2009. The GangTECC

U.S. Department of Justice                                                   34
Office of the Inspector General
Evaluation and Inspections Division
Director told us that he met with the Special Operations Division and OCDETF
in May 2009 to ask for assistance with deconfliction through analysis of
communications data. OCDETF has a database that stores investigative
information from multiple law enforcement agencies that could be used for
deconfliction purposes, making the process less labor-intensive for NGIC
analysts. As of June 2009, no agreement had been reached on OCEDTF’s role
in GangTECC’s deconfliction process.

        Early deconfliction of gang cases will maximize the use of resources and
facilitate coordination of multi-jurisdictional gang investigations. The OIG
believes the existence of a gang information management system is integral to
GangTECC’s meeting its deconfliction mission. Without a database and
accurate knowledge of ongoing gang cases, GangTECC cannot effectively
deconflict gang investigations.

Recommendations

       We recommend that:

       10.	   The Department require all participating GangTECC members
              report every newly opened gang-related investigation to GangTECC
              at the time the component opens the case.

       11.	   The Department direct that each USAO notify GangTECC of each
              newly opened gang case immediately upon opening the case.

GangTECC’s efforts to publicize its priority gang targets have lagged.

      A primary GangTECC mission established in its operational plan is to
develop an enhanced understanding of the national gang problem and propose
strategies to neutralize the most violent and significant gang threats. In
August 2006, GangTECC and NGIC identified 13 priority gang targets. During
our interviews with GangTECC members in summer 2008, investigators stated
that they were assigned specific gangs to monitor and had two on-going
investigations involving priority targets.

       Although GangTECC and NGIC shared the 13 priority targets with its
Governing Board and the Department’s Anti-Gang Coordinating Committee, it
is unclear whether this information was shared with the rest of the law
enforcement community, and we found little evidence regarding the use of this
list beyond GangTECC and NGIC during our review.

     In an effort to update the original list of 13 priority gang targets,
GangTECC developed a new method to identify priority targets in the fall of
2008 which led to a new list of 17 priority gang targets. As of September 2009,

U.S. Department of Justice                                                 35
Office of the Inspector General
Evaluation and Inspections Division
however, it had not shared the new list of 17 priority gang targets with the
field. Separate from its effort to develop a list of priority gangs, in October
2007 GangTECC began to develop BOP targeting packages that identify
inmates and their associates outside the prison system who engage in
suspicious activities. The following sections describe GangTECC’s efforts to
identify the most serious gang threats.

GangTECC has developed a new method to identify priority targets.

       GangTECC’s operational plan calls for it to use information from NGIC
and other sources to identify targets for investigations by field agents.
Specifically, GangTECC’s Concept of Operations states that the Center should
“use the intelligence provided by NGIC and other sources to identify and
recommend priority target groups, activities, geographic areas and individuals.”
The GangTECC Director said GangTECC’s development of its Targeting
Prioritization Project to update the existing list of 13 priority targets was
delayed until September 2008 while NGIC worked with NDIC on the 2009
National Gang Threat Assessment, which was completed in November 2008.

       GangTECC, with the assistance of NGIC, created a threat matrix that
contained characteristics associated with each gang such as the gang’s
organization, its propensity for violent crime, the size of the gang, the types of
weapons used by the gang, and whether the gang was involved in drug
trafficking. The Centers then assigned point values to the characteristics in
the matrix to develop a score corresponding to the relative threat posed by each
gang, with a higher score indicating the gang was a greater threat relative to
gangs with lower scores.

       Once the Centers developed the threat matrix, GangTECC used
information from the 2009 National Gang Threat Assessment as a source for
information for its targeting project.46 In February 2009, NGIC used the matrix
to assign scores for the most reported gangs in the 2009 National Gang Threat
Assessment. The gangs were assigned to one of two “tiers” based on their
scores, with Tier 1 consisting of the two or three gangs that pose the greatest
threat. According to the GangTECC Director, establishment of these tiers was
intended to assist law enforcement agencies in each region with focusing their
gang efforts on the most significant threats. Through its process, GangTECC
identified 17 high priority gangs across the United States. Examples of high
priority gangs identified by GangTECC include:

        46 In November 2008, NDIC and NGIC jointly completed the 2009 National Gang Threat

Assessment. The Assessment provides an analysis of data collected from federal, state, and
local law enforcement agencies about the nature of the gang problem in their areas. For the
2009 Assessment, the country was divided into seven regions and law enforcement personnel
from each region identified the gangs they believed to be the most dangerous in their area.


U.S. Department of Justice                                                           36
Office of the Inspector General
Evaluation and Inspections Division
       	 Gangster Disciples – This street gang is active in 110 cities and 31
          states and has an estimated membership of 25,000 to 50,000. Their
          main source of income is the distribution of drugs, but the gang is
          also involved in other criminal activity, such as homicide, assault,
          auto theft, firearms violations, and money laundering.

       	 Sureños – This street gang is composed of members from various
          gangs who put aside former rivalries when they enter the prison
          system and unite under the name Sureños. Some members have
          direct links to Mexican drug trafficking organizations. Their main
          source of income is drug distribution within prison systems and in the
          community, as well as extortion of street-level drug distributors. They
          are also involved in other criminal activities such as assault,
          carjacking, home invasion, homicide, and robbery.

       In April 2009, GangTECC shared the results of its prioritization
assessment with its Governing Board, headquarters officials from its member
agencies, EOUSA, and the Attorney General Anti-Gang Coordination
Committee. However, as of September 2009, GangTECC had not shared the
targeting results with the field. Although representatives from GangTECC’s
participating components received priority targeting results at the Board
meeting, the information was not disseminated to their respective field offices.

      In addition to these notifications, the GangTECC Director told the OIG
that the priority target information will be disseminated to other law
enforcement agencies through various presentations, including at Project Safe
Neighborhood conferences. The Director stated that the information also will
be distributed to state and local law enforcement in a tri-fold handout via mail,
but he could not provide a timeframe on when this was to occur because
GangTECC lacked the funds to design and print the brochure. According to
the GangTECC Director, he would like to carry out the target prioritization
process annually, but does not have an efficient method for collecting the
requisite information on gang activity from law enforcement agencies.

       Prior to identifying priority targets, GangTECC developed a strategy to
identify outside targets that are potentially assisting criminal activity inside
federal prisons. Specifically, GangTECC used information from BOP databases
to develop “targeting packages” of information on gangs. The GangTECC/BOP
Targeting Packages have successfully generated cases against gang members.
According to the GangTECC Director, GangTECC is coordinating investigations
on 5 of the 17 identified priority gangs.




U.S. Department of Justice                                                  37
Office of the Inspector General
Evaluation and Inspections Division
GangTECC’s lack of analytical support affects its ability to fully accomplish its
targeting mission.

       Because GangTECC does not have its own analytical capability, it is
limited in its ability to independently identify priority targets and patterns that
can be exploited by investigators. In addition, it cannot create strategic or
tactical products for the field. The Deputy Attorney General’s memorandum
creating GangTECC required the participating member components to provide
investigators, not analysts. Since investigators are not trained to perform the
same type of work as analysts, the GangTECC Director told the OIG that the
Center’s targeting efforts were reliant upon NGIC’s analytical resources.

        This is consistent with the reason the two Centers were co-located - to
facilitate interagency cooperation and gang-related information sharing.
Despite the Centers collaborative efforts to identify priority targets, we found
that gang information was rarely shared between GangTECC and NGIC. For
example, in the summer 2008 several NGIC analysts and managers told the
OIG that they were unfamiliar with GangTECC’s mission. Also, half of
GangTECC members stated they did not share any information with NGIC. We
also believe that the efforts to inform the field of the priority targets could have
occurred in a more timely fashion if the Centers had collaborated to do so.

       We also note that unlike other multi-agency federal law enforcement
centers, GangTECC does not have its own analytical resources. Other
multi-agency entities such as the DEA’s Special Operations Division and EPIC
have analysts who are trained to provide strategic and operational support to
the investigators. The Director of the Special Operations Division told the OIG
that the Special Operations Division’s investigators and analysts work in teams
to facilitate better communication. The investigators direct the investigation
and the analysts use databases, charts, and other information to show links
between cases. In contrast, communication between NGIC analysts and
GangTECC agents is disjointed when it occurs.

       To assist Departmental anti-gang activities, GangTECC should develop a
plan to improve how it identifies priority targets for the field and disseminate
the information it develops in a timely manner. GangTECC has developed
plans for targeting 4 priority targets, but must also develop additional
strategies to address its remaining 13 priority targets. However, to carry out
any such strategies or initiatives, GangTECC will need to address its lack of
analytical support or develop a better working relationship with NGIC.




U.S. Department of Justice                                                    38
Office of the Inspector General
Evaluation and Inspections Division
Recommendations

       We recommend that:

       12.	   GangTECC and NGIC (a) immediately disseminate information on
              the 17 gangs that they have identified as posing the greatest
              threat, and (b) develop a plan for periodically updating and
              disseminating information on high-threat gangs.

       13.	   GangTECC and NGIC develop law enforcement strategies and
              initiatives to address the additional identified priority targets.

       14.	   GangTECC and NGIC increase the use of NGIC’s analytical
              resources to support GangTECC’s targeting mission.




U.S. Department of Justice                                                         39
Office of the Inspector General
Evaluation and Inspections Division
NGIC AND GANGTECC ARE NOT EFFECTIVE AS INDEPENDENT ENTITIES


       NGIC and GangTECC are not operating effectively

       despite being co-located. We found that their separate

       management structures have hindered their ability to

       coordinate and communicate. As a result, the two

       centers do not provide a “one-stop shopping” capability

       that was envisioned and currently advertised.



       The effectiveness of NGIC and GangTECC to contribute to the
Department’s anti-gang initiatives is dependent upon their working together to
achieve common goals, which include deconflicting gang investigations,
identifying priority targets, and sharing gang information. However, the OIG
found that several factors, discussed in the sections above, impair their ability
to achieve their common goals and contribute to the Department’s anti-gang
initiatives. We believe that the Department should consider merging the two
organizations.

      Both NGIC and GangTECC advertise at conferences and in their
pamphlets that they provide investigators and prosecutors with a “one-stop
shopping” capability for gang information and assistance. This capability has
not been achieved, in part, because the Centers’ separate management
structures are not conducive to achieving these goals. These organizations
have different approaches to funding, staffing requirements, and investigative
priorities that prevent an effective partnership between the two Centers.
Co-location of NGIC and GangTECC was not enough to overcome these
differences in order for an effective partnership to occur.

      Instead, NGIC and GangTECC communicate on an ad hoc and limited
basis. For example, GangTECC members told the OIG that they did not
communicate with NGIC analysts on a regular basis. In addition, some
GangTECC personnel we interviewed were unfamiliar with NGIC’s intelligence
products, while other GangTECC personnel found NGIC intelligence products
useful only for general background information for their investigations.

      The lack of coordination between the Centers was recognized by some
NGIC and GangTECC personnel we interviewed. For example, one NGIC staff
member stated that the two organizations did not work together as much as he
expected given their close proximity to one another and their similar goals and
objectives. In addition, an NGIC analyst stated that the operations of the two
organizations are not cohesive and that the Centers did not mesh together
structurally. A GangTECC agent voiced similar thoughts, stating that
GangTECC needed to find a direction in concert with NGIC, and that there was
not enough coordination between the two entities.

U.S. Department of Justice                                                  40
Office of the Inspector General
Evaluation and Inspections Division
        Combining the two organizations under a single Department entity could
facilitate a common vision for the two organizations and a more uniform
approach to assisting gang investigations, create a better joint operating
environment, and provide for a more reliable resource stream to support the
Centers’ missions. A merger also would enable the Centers to move closer to
providing the “one-stop shopping” capability that was envisioned and is
advertised. We therefore believe that the Department should consider merging
NGIC and GangTECC into a single unit under common leadership.

       While a merger of the Centers will provide a more uniform approach to
assisting gang investigations and prosecutions, merger alone is insufficient to
assure a major contribution to the Department’s anti-gang initiatives. Major
improvements are needed in the areas discussed in this report if the Centers
are to effectively coordinate and support gang investigators and prosecutors
nationwide.

Recommendation

       We recommend that:

        15.   The Department consider merging NGIC and GangTECC.




U.S. Department of Justice                                                 41
Office of the Inspector General
Evaluation and Inspections Division
                     CONCLUSION AND RECOMMENDATIONS



       NGIC and GangTECC were created to be the Department’s national
intelligence and coordination mechanisms, respectively, for gang-related
investigations and prosecutions. However, we found that after more than
3 years, the Centers have not significantly improved the coordination and
execution of the Department’s anti-gang initiatives. Although the Centers were
co-located to facilitate interagency cooperation, collaboration, and gang-related
information sharing, they are not effectively doing so. Many factors
contributed to the Centers’ inability to make a significant impact on the
Department’s anti-gang activities.

       For example, we found that because of poor performance by a contractor
and technological challenges associated with establishing electronic bridges
between disparate state and local databases, NGIC has not established a gang
information database for collecting and disseminating gang intelligence as
directed by Congress. We believe that development of a gang information
management system is crucial to support the Department’s anti-gang
initiatives and must be achieved as soon as possible.

      Although the NGIC and GangTECC partnership was created to provide
investigators and prosecutors with “one-stop shopping” for gang information
and assistance, that has not occurred. For example, because GangTECC’s
member agencies and USAOs are not required to inform GangTECC of their
investigations and prosecutions, GangTECC cannot effectively deconflict the
Department’s gang-related activities as directed by the Deputy Attorney
General. Also, the Criminal Division has not filled an attorney position
intended to enable GangTECC to provide guidance to law enforcement officials
conducting gang investigations and prosecutions. GangTECC’s efforts to
publicize priority gang targets have lagged.

       NGIC is perceived as predominately an FBI organization, and it does not
effectively share gang intelligence and information with other law enforcement
organizations. Overall, in the 38-month period we examined, NGIC received
only 213 requests for information – about 6 requests a month. Moreover, the
preponderance of FBI and internal requests suggests that the NGIC remains
primarily focused on FBI investigations and has not become the national
resource on gang intelligence for federal, state, and local law enforcement as
envisioned. Also, NGIC’s intelligence products have limited usefulness to its
customers. We believe this is due in part to the Center’s failure to monitor its
customers’ needs or satisfaction with its products and services.

      We also found that, although the Centers were co-located to facilitate
interagency cooperation, collaboration, and gang-related information sharing,
NGIC and GangTECC have made only limited use of each others’ resources.
U.S. Department of Justice                                                 42
Office of the Inspector General
Evaluation and Inspections Division
Furthermore, services and communication between the two Centers’ personnel
occur only on an ad hoc basis.

      Finally, although GangTECC was assigned a broad, multi-purpose
mission, it has no operating budget. This has prevented GangTECC managers
from taking actions essential to GangTECC’s operations. Among other things,
GangTECC has been limited in its ability to host case coordination meetings
and conduct effective outreach to the law enforcement community.

       Since co-location of the Centers has proven insufficient to ensure that
their common goals are met, the OIG recommends that the Department
consider merging NGIC and GangTECC into a single unit under common
leadership. Merging the Centers could improve their ability to support and
coordinate the Department’s anti-gang initiatives at a national level by
reducing incompatibilities that result from the current organizational
alignment, creating a better joint operating environment, and providing for a
more reliable resource stream to support the Centers’ mission.

       However, while we believe that merging the Centers could improve their
ability to assist gang investigations and prosecutions, merger alone is
insufficient to support the Department’s anti-gang initiatives. Major
improvements are needed in the areas discussed in this report if the Centers
are to effectively coordinate and support gang investigators and prosecutors
nationwide. We therefore make 15 recommendations to help improve the
NGIC’s and GangTECC’s missions of assisting federal, state, and local law
enforcement to address violent regional and national gangs.

Recommendations

       We recommend that:

       1.	 NGIC establish a working group composed of representatives from its
           member agencies and state and local law enforcement to identify
           methods for sharing gang-related intelligence across the law
           enforcement community. This working group should address, among
           other issues: (a) a definition of “gang” and criteria for identifying
           gang membership; and (b) data standards for entering gang
           information into databases.

       2.	 NGIC create an implementation plan that identifies functional
           requirements with milestone dates to procure a gang information
           management system.

       3.	 NGIC analyze the responses to past customer surveys on intelligence
           products to identify improvements that would make its intelligence
           products more useful to customers.

U.S. Department of Justice                                                 43
Office of the Inspector General
Evaluation and Inspections Division
       4.	 NGIC expand its customer satisfaction surveys to include recipients

           of all of its products and services.


       5.	 NGIC analyze the types of information being requested and the time
           spent responding to each request type to better allocate its resources.

       6.	 NGIC track all of requests for information that it receives.

       7.	 The Department request a separate operating budget for GangTECC.

       8.	 The Criminal Division assign and locate at GangTECC at least one

           full-time experienced prosecutor as discussed in GangTECC’s

           Concept of Operations.


       9.	 The Criminal Division and Governing Board direct GangTECC and
           the Gang Unit to jointly develop written protocols addressing: (a)
           how often and under what conditions GangTECC and the Gang Unit
           should meet to share information on gang-related cases; (b) what
           gang-related information should be regularly shared between the two
           entities; (c) criteria for GangTECC to follow in referring gang cases to
           the Gang Unit; and (d) a method for determining which component
           will coordinate directly with the field office and district USAO.

      10. The Department require all participating GangTECC members report
          every newly opened gang-related investigation to GangTECC at the
          time the component opens the case.

      11. The Department direct that each USAO notify GangTECC of each
          newly opened gang case immediately upon opening the case.

      12. GangTECC and NGIC (a) immediately disseminate information on the
          17 gangs that they have identified as posing the greatest threat, and
          (b) develop a plan for periodically updating and disseminating
          information on high-threat gangs.

      13. GangTECC and NGIC develop law enforcement strategies and
          initiatives to address the additional identified priority targets.

      14. GangTECC and NGIC increase the use of NGIC’s analytical resources
          to support GangTECC’s targeting mission.

      15. The Department consider merging NGIC and GangTECC.




U.S. Department of Justice                                                     44
Office of the Inspector General
Evaluation and Inspections Division
              APPENDIX I: METHODOLOGY OF THE OIG REVIEW



      We conducted in-person and telephone interviews, performed data
analyses and document reviews, and observed information systems and
database demonstrations. We also observed an NGIC criminal analytic training
conference and visited the DEA’s Special Operations Division facility. In
addition, we coordinated with the U.S. Government Accountability Office
(GAO), which was conducting both domestic and international gang reviews
concurrently with this OIG review, to ensure that our review was not
duplicative of GAO’s.

Interviews

       NGIC and GangTECC. We interviewed NGIC and GangTECC personnel to
learn about their roles and responsibilities and how the two Centers interact
with each other. At NGIC, we interviewed the Director, Deputy Director, 2
supervisory intelligence analysts, 14 intelligence analysts, 1 program analyst,
and 1 former law enforcement fellow. We also interviewed three newly assigned
NGIC personnel from CBP and DoD. In March 2009, we conducted follow-up
interviews with six NGIC analysts to assess whether changes in operations had
occurred since our initial interviews.

     At GangTECC, we interviewed the Director, Deputy Director, and 12
GangTECC members (11 investigators and 1 intelligence officer). We also
conducted follow-up interviews with six GangTECC members to assess whether
changes had occurred since our initial interviews.

       Department Components. We interviewed officials from the Department’s
federal law enforcement components listed below to discuss their programs and
methods for investigating gang crime and how they interact with NGIC and
GangTECC. We also interviewed personnel from the Criminal Division, Office
of the Deputy Attorney General (ODAG), the Executive Office for the United
States Attorneys (EOUSA), and the Justice Management Division (JMD) to
gather information about the creation of both Centers, oversight mechanisms
in place, prosecution of gang crime, and NGIC and GangTECC’s budgets. The
following is a list of the staff we interviewed at each component:

   	 ATF – We interviewed personnel from the Field Management Staff, the
      Office of Training and Professional Development, the Firearms Division,
      Field Intelligence, the Office of Strategic Intelligence and Information,
      and the Firearms Enforcement Branch. We also interviewed ATF field
      personnel who received assistance from GangTECC.



U.S. Department of Justice                                                 45
Office of the Inspector General
Evaluation and Inspections Division
   	 DEA – We interviewed DEA field personnel who received assistance from
      GangTECC.

   	 FBI – We interviewed the former Section Chief of the Gang/Criminal
      Enterprise Section, the Chief of the MS-13 National Gang Task Force,
      FBI budget personnel to obtain an understanding of NGIC’s budget, and
      FBI field personnel who received assistance from NGIC and GangTECC.

   	 USMS – We interviewed the Chief Inspector of Task Force Operations in
      the Investigative Services Division, a Senior Inspector located at the
      BOP’s Sacramento Intelligence Unit, and a USMS field representative
      who received assistance from GangTECC.

   	 Criminal Division – We interviewed the former Deputy Assistant Attorney
      General, the former Senior Counsel to the Assistant Attorney General,
      the Gang Unit Chief, and the Acting Director of Resource Planning and
      Evaluation regarding budget requests made on behalf of GangTECC.

   	 ODAG – We spoke with the current and two former Chairs of the
      Attorney General’s Anti-Gang Coordination Committee and a former
      Senior Counsel to the Deputy Attorney General.

   	 EOUSA – We interviewed the Counsel for Legal Initiatives and an

      attorney detailed to the National Anti-Gang Coordinator position.


   	 JMD – We obtained budget information about GangTECC from the
      Deputy Assistant Attorney General Controller in JMD and staff from the
      JMD’s budget office.

   	 DEA’s Special Operations Division - We gathered information about the
      DEA’s Special Operations Division creation, structure, operation, and its
      interaction with the field and GangTECC. In addition, managers from
      the Special Operations Division and the Organized Crime Drug
      Enforcement Task Force (OCDETF) Fusion Center explained to OIG
      evaluators how these two organizations interact with each other. 47 We
      compared the Special Operations Division organization (another
      multi-agency component) with that of the two Centers to determine if
      there were “lessons learned” that could be adopted by NGIC and
      GangTECC.


        47 OCDETF is a multi-agency center led by the DEA. OCDETF’s primary mission is to

identify, disrupt, and dismantle the most serious drug trafficking and money laundering
organizations and those primarily responsible for the nation’s drug supply.


U.S. Department of Justice                                                          46
Office of the Inspector General
Evaluation and Inspections Division
      Non-Department Personnel. We conducted telephone interviews with
personnel from the following state, local, and international law enforcement
agencies who received assistance from NGIC and GangTECC from 2006 to
2008 in order to collect data on the services each Center provided to its
customers: (1) Prince William County Police Department in Virginia, (2)
Houston Police Department in Texas, (3) Bucks County Department of
Corrections in Pennsylvania, (4) Wyandotte Police Department in Michigan,
(5) Society Hill Police Department in South Carolina, (6) Royal Canadian
Mounted Police in Canada, and (7) Europol office in Washington, D.C. We also
conducted a telephone interview with a representative from the Chicago Legal
Aid Office in Illinois who had requested assistance from NGIC.

Data Analyses

      We analyzed NGIC’s workload to identify any trends and patterns in the
type of work being done at the Center. We also analyzed customer satisfaction
surveys returned to NGIC. In addition, we reviewed logbooks in which some
GangTECC members manually record work they performed. Finally, we
performed analyses to identify trends and patterns in NGIC and GangTECC
customer bases.

      NGIC. We analyzed NGIC’s Request for Information database for the
period of January 1, 2006, to February 19, 2009, to determine the number and
types of requests NGIC received by fiscal year, the entities that submitted the
requests, the length of time NGIC took to process the requests, and which
NGIC personnel processed the requests.

      We analyzed interview responses for selected NGIC customers regarding
customer opinions of the services or assistance received, how the services or
assistance received was used by the customers, and what other NGIC services
or assistance the customers would have found useful. We selected every fourth
NGIC customer entered in the NGIC’s database for interview. Of the 33
customer entries selected, we analyzed customer responses for 27 entries. We
were unable to reach the customers for the remaining 6 entries.

      We also reviewed customer satisfaction surveys returned to NGIC during
the period January 2006 to March 2007. We reviewed the surveys to
determine the average scores given by NGIC customers on the quality and
value of NGIC intelligence products that they received. We analyzed additional
comments given by NGIC customers regarding the intelligence products that
were used to identify patterns and trends.

      GangTECC. Some GangTECC members record the work they perform in
one or more of the four logbooks that represent GangTECC’s four goals
described in the Background section of our report. Entries are made in the

U.S. Department of Justice                                               47
Office of the Inspector General
Evaluation and Inspections Division
corresponding logbook based on the task or service a member performed. We
reviewed the 363 entries made in the logbooks from January 1, 2008, through
July 31, 2008.

       We selected the customer for every tenth logbook entry, which yielded 36
customers, whom we then attempted to contact. We analyzed customer
responses for the 24 customers who completed our telephone interviews
regarding the types of services or assistance received, how they used the
services or assistance they received, what other services the customers would
like from GangTECC, and their awareness of GangTECC services in the field.

Information Systems

     NGIC and GangTECC personnel provided demonstrations of the various
agency-specific information systems and databases they use in their daily
work. In addition, we were given access to the FBI’s LEO network where NGIC
maintains a Special Interest Group for subscribers to share gang information
and where NGIC posts its intelligence assessments, bulletins, and information
papers.

Document Review

      We reviewed Attorney General and Deputy Attorney General documents
that established GangTECC. We also examined internal and congressional
documents related to NGIC’s budget authorization and appropriations and
GangTECC’s budget requests.

       We reviewed the Concepts of Operations for both Centers and analyzed
the Centers’ effectiveness in meeting the goals and objectives established for
them by the Governing Board. We also reviewed NGIC’s organizational
structure, examples of intelligence products, internal reports on the
effectiveness and efficiency of NGIC operations, outreach efforts, and training
material. We assessed GangTECC’s communication policies and procedures;
examples of GangTECC services, outreach efforts, and success stories; and the
logbooks used to track customer requests and workload.

      We also reviewed information provided by the participating Department’s
agencies and components pertaining to their respective gang-related law
enforcement operations and initiatives, gang investigation tracking methods,
and gang-related performance measurements so that we could assess the
availability of gang data and refine our review plan.




U.S. Department of Justice                                                48
Office of the Inspector General
Evaluation and Inspections Division
                                     APPENDIX II: NGIC PUBLIC LAW



           SEC. 1107. NATIONAL GANG IIIoTELUGENCE CENTER.
                 (8) EsrABIJSIIM!:s-r.- The Attorney General .hall establish a
           National Gang Intelligence Center and gang infonnat;Gfl database
           to be housed at and administered by the Federal Bureau of InveB­
           tigation to collect. analyze, and diSlillminata gang activity informa­
           t ion frorn-
                      ( I) the Federal Bureau oflnvestigation ;
                      (2) the Burea u of Al cohol, Tobacco. Firearms, and Explo-
                 81Vetl:
                      ( 3) th e Drug EnfO}rremcn t AdministratiO}n;
                      (4 ) the Bureau ofPrisoTll!;
                      (~) the United States MaM!hals Service;
                      (6) t he Directorate of Border and Tran sportation Security
                 or the Department of Homeland Security;
                      (7) the Department (If Housing and UrlJan Development;

119 STAT. 3094                    PUBLIC LAW 109--162-JAN. 5, 2006
                     (8) Slate and local law enforoement:
                     (9 ) Federnl, State, and local prosec:uton:
                     (1 0) Federal, State. and local probation and pa role offi ce.;
                     ( I I) Federal. State. an d local priaon ~ and ja il~: an d
                     ( 12) any other entity as appropriate.
                 (b) INPORMA." ON.-ll>e Center e~tabl i~hed under subeedion
            (a ) Mall make available the information referred to in sub8ection
            (a) lo-
                           Federal , State, and local law enfOr<:Cment agenciea;
                           (I )
                      (2) Federal. State. and local correction. agencies and penal
                 institution8;
                      (3) Federal, State, and local pf08e<:utorial ager>cies; and
                      (4) a ny other cntitv 811 appropriate.
                 (e) ANNUAL RU'QRT.-TI.e Center estahlished under 8uhsoction
            (a) shall annually ~ubmit to OJngres~ a report on gang activity.
                 (d ) AUTlIORlZAT10N O~ A1'V110PlU"T10l<o"S.-~re are authorized
            to be appropriated to carT)' out this section $10.000.000 for fIscal
            year 2(H)6 and for each fiscal year thereafter .




 U.S. Department of Justice                                                            49
 Office of the Inspector General
 Evaluation and Inspections Division
         APPENDIX III: NGIC CONCEPT OF OPERATIONS (EXCERPT)



Goal 1: Establish and maintain an FBI-facilitated multi-agency NGIC.

   	 Objective: Establish cooperation and/or participation from the ATF,
      BOP, DEA, DOJ, ICE, NDIC, RISS, and USMS in staffing the NGIC
      through the assignment of Intelligence Analytical personnel and/or the
      provision of data or other support

   	 Objective: Develop a Memorandum of Understanding (MOU) with each
      participating agency.

   	 Objective: Coordinate with the Office of Congressional Affairs, or agency
      equivalent, to seek Congressional funding for federal agency support to
      the NGIC.

   	 Objective: Coordinate with RISS to promote effective information flow
      and information sharing between the NGIC and the federal, state, local,
      and tribal law enforcement community.

Goal 2: Research, acquire, and implement technology to manage the exchange
of gang information among federal, state, local, and tribal law enforcement
agencies.

   	 Objective: Coordinate with participating agencies to research and
      identify in-house or commercial technology available to the NGIC for the
      efficient collection, storage, and manipulation of federal, state, local, and
      tribal gang information.

   	 Objective: Establish an information exchange backbone and leverage
      existing networks.

   	 Objective: Through available technology, establish “electronic bridges” to
      federal, state, and local IT systems.

Goal 3: Provide the law enforcement community with a “one-stop-shop”
mechanism for quick-checks or data calls to support law enforcement requests
for information regarding suspected or known gangs and/or gang members.

   	 Objective: Develop and implement NGIC protocols to provide a timely
      and comprehensive response to requests for information, representing a
      coordinated integration of participating agencies’ information.


U.S. Department of Justice                                                   50
Office of the Inspector General
Evaluation and Inspections Division
   	 Objective: Create a centralized data management system within the
      NGIC for all relevant gang intelligence collected through normal
      operations of the NGIC, and public source information collected as
      permitted by statute and policy. NGIC does not intend to create a
      national gang database.

   	 Objective: Create and maintain a current, comprehensive library of gang
      identification symbols, clothing, signs, tattoos, codes, writings, graffiti,
      and philosophies through the collection of raw intelligence and
      investigative information voluntarily submitted by the law enforcement
      community.

   	 Objective: Consult with Counsel’s offices of all participating agencies
      and the DOJ on legal issues regarding information sharing of intelligence
      and investigative information.

Goal 4: Conduct timely research and analysis which seeks to identify and
neutralize emerging trends of the most violent gangs.

   	 Objective: Identify National Gang Collection Priorities (NGCP’s) for the
      purposes of collecting intelligence on domestic and transnational gangs
      that pose a significant multi-jurisdiction threat and that adversely
      impact many communities through violence, drug distribution, and
      recruitment of local youth.

   	 Objective: Identify trends and patterns of both domestic and
      transnational gang activities as they relate to issues of national security,
      border protection, and public safety.

   	 Objective: Produce actionable coordinated tactical and/or strategic
      intelligence products (including, but not limited to: Intelligence
      Assessments, Intelligence Bulletins, both Regional and National Threat
      Assessments, Target Support Packages, and Information Papers), using
      sophisticated technical and analytical tools, to support the initiation and
      enhancement of gang investigative efforts.

   	 Objective: Implement biometrics to include facial recognition capabilities
      within the NGIC and interface with state, local, and tribal agencies.

Goal 5: Provide analytic support to law enforcement investigations,
operational/intelligence initiatives, and issues of immediate concern.

   	 Objective: Assist the Gang Targeting Enforcement and Coordination
      Center (GangTECC) and law enforcement agencies in prioritizing targets

U.S. Department of Justice                                                   51
Office of the Inspector General
Evaluation and Inspections Division
       for investigation and prosecution, devising investigative strategies, and
       allocating resources to address gang problems.

Goal 6: Provide intelligence support for GangTECC and other law enforcement
agencies to deconflict and coordinate gang related investigations and
prosecutions.

   	 Objective: Establish a relationship between the NGIC and GangTECC, to
      include the co-location of the two entities.

   	 Objective: Through requests for information and relational analyses of
      pending and closed gang investigations reported to the NGIC, develop
      and implement procedures to identify conflict and report, as appropriate,
      to GangTECC.

Goal 7: Develop and maintain strong partner and customer relations to
maximize analytical and information exchange efforts.

   	 Objective: Assist United States and foreign law enforcement, whenever
      possible, in identifying those gangs posing the greatest threat through
      information-sharing forums and dissemination of various intelligence
      products.

   	 Objective: Host workshops and in-service training focusing on specific
      priority groups, geographical regions, and/or specific gang issues.

   	 Objective: Establish a Law Enforcement Fellows Program allowing state
      and/or local sworn and analytical personnel to work in the NGIC for a
      six-month period of time, to foster state and local law enforcement ties.




U.S. Department of Justice                                                   52
Office of the Inspector General
Evaluation and Inspections Division
     APPENDIX IV: GANGTECC CONCEPT OF OPERATIONS (EXCERPT)



Goal 1: Assisting the initiation of gang-related investigations and enhancing
existing investigations and prosecutions.

   	 Objective: GangTECC will proactively identify and disseminate case-
      specific intelligence to federal, state and local law enforcement that can be
      used to support gang-related investigations and prosecutions.

   	 Objective: GangTECC will facilitate the development of targeted strategic
      and tactical products designed specifically to support investigations and
      prosecutions.

   	 Objective: GangTECC will collect and share gang-related intelligence,

      analysis and targeting information, in cooperation with originating

      agencies and existing practices.


   	 Objective: GangTECC will provide additional assistance to law
      enforcement and prosecutors as requested and as appropriate, given
      resources and priorities.

Goal 2: Aiding in coordination, deconfliction, and effectiveness of gang-
related initiatives, investigations and prosecutions.

   	 Objective: GangTECC will identify appropriate opportunities for inter­
      agency and inter-district coordination and will help link together local
      investigations and prosecutions into coordinated, strategic, inter-agency,
      inter- jurisdictional enforcement operations, consistent with existing
      authorities and practices of the Departments of Justice and Homeland
      Security.

   	 Objective: GangTECC will help to connect investigators and prosecutors
      to resources and intelligence outside their districts.

   	 Objective: To identify cross-district and cross-agency linkages,
      GangTECC will coordinate closely with, and will rely on the capabilities
      of, existing entities such as Special Operations Division (SOD) and ATF’s
      National Tracing Center.




U.S. Department of Justice                                                        53
Office of the Inspector General
Evaluation and Inspections Division
   	 Objective: GangTECC will assist in resolving conflicts between

      different jurisdictions and agencies when their investigations or

      prosecutions overlap.


Goal 3: Developing an enhanced understanding of the national gang problem
and propose strategies to neutralize the most violent and significant threats.

   	 Objective: GangTECC will use the intelligence provided by the
      National Gang Intelligence Center (NGIC) and other sources to identify and
      recommend priority target groups, activities, geographic areas and
      individuals.

   	 Objective: GangTECC will use intelligence generated by the NGIC, as
      well as independent assessments of gang-related drug trafficking,
      firearms trafficking, and other interstate and international criminal
      activities, including the fugitive status of gang members, to help
      identify patterns that can be exploited by investigators and
      prosecutors.

   	 Objective: GangTECC will help develop strategies and initiatives that

      address those priority targets.

Goal 4: Coordinating with and supporting the NGIC.

   	 Objective: The interagency NGIC has. as its core mission the collection,
      analysis and dissemination of gang-related intelligence. GangTECC will co­
      locate with the NGIC and will serve as a major customer of the
      intelligence products of the NGIC.

   	 Objective: GangTECC will share information with NGIC on its identified
      priority target recommendations, and will focus and prioritize
      intelligence collection and analysis through taskings and other guidance
      to the NGIC.

   	 Objective: GangTECC will help ensure that case-related intelligence in
      the field is being shared with the NGIC in a timely manner.

   	 Objective: GangTECC will work with the NGIC to address any problems
      inherent in the collection of gang-related intelligence from the field or other
      Centers.




U.S. Department of Justice                                                       54
Office of the Inspector General
Evaluation and Inspections Division
            APPENDIX V: DEPUTY ATTORNEY GENERAL MEMORANDUM





                                                          u.s.   Department of Justice

                                                          Office of the Deputy Attorney General




   The Depuly Auorocy Gencrol                             Uushingum, D.C. 20530


                                                          July 25,         2006



    MEMORANDUM FOR ASSISTANT ATTORNEY GENERAL, CRIMINAL DIVISION
                   DIRECTOR, EXECUTIVE OFFICE FOR UNITED STATES
                       ATTORNEYS
                   DIRECTOR, FEDERAL BUREAU OF INVESTIGATION
                   DIRECTOR, BUREAU OF ALCOHOL, TOBACCO, FIREARMS,
                      AND EXPLOSIVES
                   ADMINISTRATOR, DRUG ENFORCEMENT ADMINISTRATION
                   DIRECTOR, FEDERAL BUREAU OF PRlSONS
                   DIRECTOR, UNITED STATES MARSHALS SERVICE
                   DIRECTOR, NATIONAL GANG TARGETING, ENFORCEMENT,
                      AND COORDINATION CENTER
                   DIRECTOR, NATIONAL GANG INTELLIGENCE CENTER
                   CHIEF INFORMATION OFFICER, DEPARTMENT OF JUSTICE
                   CHIEF INFORMATION OFFICER, FEDERAL BUREAU OF
                      INVESTIGATION                           .
                   CHAIR, ATTORNEY GENERAL'S ANTI-GANG COORDINATION
                      COMMITTEE

  , FROM:                       Paul J, McNulty " "~
                                Deputy Attorney General

   SUBJECT:                     Establishment of the National Gang Targeting, Enforcement &
                                Coordination,Center (GangTECC) and Governing Board of GangTECC
                                and the National Gang Intelligence Center

   L         Establishment of the National Gang Targeting, Enforcement & Coordination Center

            On February 15, 2006, the Attorney General announced plans to create a miw national
   anti-gang task force as part of his initiative to combat gangs and gang violence across America.
   The Attorney General envisioned a task force that would create law enforcement strategies and
   facilitate operations across agency lines aimed at dismantling national and trans-national violent
   gangs. This task force would also coordinate overlapping investigatIons, 'ensure that tactical and
   strategic intelligence is shared between law enforcement agencies, and serve as a central
   coordinating center for multi-jurisdictional gang investigations involving federal law
   enforcement agencies.




U.S. Department of Justice                                                                              55
Office of the Inspector General
Evaluation and Inspections Division
                 On June 26, 2006, the National Gang Targeting, Enforcement & Coordination Center
         (GangTECC) began operations. In accordance with the Attorney General's direction, Gang­
         IECC is a multi-agency center that will serve as a critical catalyst in a unified federal effort to
         help disrupt and dismantle the most violent gangs in the United States. GangTECC will be co­
         located with the National Gang Intelligence Center (NGIC), which is temporarily housed in
         Washington, DC, at the FBl Headquarters. GangTECC will work in close coordination with the
         NGIC, and will be a primary consumer ofNGIC intelligence. Specifically, GangTECC will:

                      Assist the initiation of gang-related investigations and enhance existing
                      investigations and .prosecutions;, ,

                      Aid in coordination, deconfliction, and effectiveness of gang~related initiatives,
                      investigations and prosecutions; ,

                      Develop an enhanced understanding of the national gang problem and propose
                      strategies and targets to neutralize the most violent and significant threats; and

                      Coordinate with and support the National Gang Intelligence Center"

                GangTECC is managed by a Director,selected by the Assistant Attorney General for the
         Criminal Division, and supported by an interagency team of Federal agents and prosecutors, The
         following agencies currently participate in GangTECC:       '

                Bureau of Alcohol, Tobacco, Firearms and Explosives
                Criminal Division
                Drug Enforcement Administration
                Federal Bureau of Investigation
                Federal Bureau of Prisons
                United States Marshals, Service
                Bureau ofImmigration and Customs Enforcement,Department of Homeland Security

        Given state and local law enforcement's critical expertis\i 'in combating gangs, I hereby direct the
        Director of Gangl'ECC to explore all ava.ilable options for ensuring state and local law
        enforcement representation in GangTECC. Additional participants may be added as appropriate.

                 To ensure consistent Department participation in GangTECC, I further direct the Bureau
        of Alcohol, Tobacco, Firearms and Explosives and the Federal Bureau of InVestigation to assign
        at least two experienced agents full time to GangTECC, effective July 2006. The Drug
        Enforcement Administration and United States Marshals Senrice shall assign at least one
        experienced agent, and the Federal Bureau of Prisons shall assign at least one experienced'
        representative, full time to GangTECC, effective July 2006. Agents assign~ to GangTECC
        shall be subj ect to approval by the Assistant Attorney Generalfodhe Criminal Division. ' ,



                                                         2




U.S. Department of Justice                                                                                     56
Office of the Inspector General
Evaluation and Inspections Division
                  Combating the threat of violent criminal gangs is one of the Department's top prionties . .
          I appreciate the work undertaken by Department agents and prosecutors, our intc:ragency partners
          from the Department of Homeland Security, and representatives fromvariousintelligence and
          investigative associations that has provided the platform from which this cQordiI)ation center
          could be launched. These next few months ate critical to ensuring successfuLoperations of Uris
          center, and I ask that aU Department components and agencies commit to suppoI1ing this effort.

          II.    Establishment of the Governing Board of GangTECCand the National Gang
                 Intelligence Center

                 On July 28, 2005, Deputy Attorney General James. B. Comey      establ~~ii~d'~~
                                                                                            Governing
          Board of the National Gang Intelligence Center(NGIC). The close relationship .andcoordination
          between GangTECC and the NGIC now counsels for expansion of that Governing Board.to
          oversee the activities of both entities.

                  Therefore,to ensure the most effective coordination of anti-gang efforts by the
          Department, there is hereby established the National Gang Intelligence and Coordination Center
          Governing Board ("Governing Board"). The Director, NGIC, and the Director; GangTECC,
          shall co-chair the Governing Board.

          The Governing Board shall have the following rriembers:

                 Director, Federal BureauofInvestigation
                 Director, Bureau of Alcohol, Tobacco, Firearms, and Explosives
                 Assistant Attorney General, Criminal Division
                 Administrator, Drug Enforcement Administration
                 Director, Executive Office for United States Attorneys
                 Director, Federal Bureau of Prisons
                 Director, United States Marshals Service
                 Director, National Gang Intelligence Center
                 Director, National Gang Targeting, Enforcement &Coordination Center
                 Chief Information Officer, Department of Justice
                 Chief Information Officer, Federal Bureau of Investigation
                 Chair, Subcommittee on Violent and Organized Crime, Attorney General's
                         Advisory Committee
                 Chair, Attorney General's Anti-Gang Coordination Committee

          A member of the Goveming Board may designate any person who is part of the member's
          component or committee to perform the duties. ofthe member on the Governing Board. The
          Board may add such other members, invitees, or participants as it deems a~propriate.
                                                                                     ,'f




                                                          3




U.S. Department of Justice                                                                                      57
Office of the Inspector General
Evaluation and Inspections Division
   · ....


                    The Governing Board shall approve policies and procedures for the NGIC and
            GangTECC, including, but not limited to, the concept of operations and any necessary standard
            operating procedures for the two entities. .The Governing Board shall ensure that all NGIC and
            GangTECC policies and procedures are consistent with the anti-gang policies established by the
            Attorney General, the Deputy Attorney General, and the Attorney General's Anti-Gang
            Coordination Committee (the Committee).

                    The Governing Board shall meet within 30 days of the date of this memorandum and
            thereafter at the call of the co-chairs, but not less than oncequarteriy.

                     No later than 90 days from the date of this memorandum, the Governing Board shall
            submit a written report to the Committee updating the progress on the, governing documents for
            both the NGIC and GangTECC, and reporting on the activities of each. , No later than 180 days
            from the date of this memorandum, the Goveming Board shall submit a written report to the
            Committee outlining plans for relocating the NGIC and GangTECC to a new location
            recommend'ed by the Goveming Board. In reviewing potential locations, the Governing Board
            shall consider co-location with the Special Operations Division in Chantilly, Virginia. The
            relocation shall proceed with all deliberate speed, and shall occur no later than March 31, 2007.
            Thereafter the Governing Board shall submit an annual report to the Committee detailing the
            activities and successes of both the NGIC and GangTECC,no,later than the last day of each
            fiscal year.

                    To the extent this memorandum conflicts with the July 28, 2005, Deputy Attorney
            General's memorandum establishing the Governing Board of the NGIC, this memorandum
            controls.




                                                           4




U.S. Department of Justice                                                                                      58
Office of the Inspector General
Evaluation and Inspections Division
                              APPENDIX VI: GLOSSARY



AGCC           Attorney General’s Anti-Gang Coordination Committee

ATF            Bureau of Alcohol, Tobacco, Firearms and Explosives

BOP            Federal Bureau of Prisons

CBP            Customs and Border Protection (Department of Homeland
               Security)

DEA            Drug Enforcement Administration

DoD            Department of Defense

EOUSA          Executive Office for United States Attorneys

EPIC           El Paso Intelligence Center

FBI            Federal Bureau of Investigation

GangTECC National Gang Targeting, Enforcement, and Coordination Center

GAO            Government Accountability Office

HIDTA          High Intensity Drug Trafficking Areas

ICE            Immigration and Customs Enforcement (Department of Homeland
               Security)

JMD            Justice Management Division

LEAP           Leadership Excellence and Achievement Program

LEO            Law Enforcement Online

NDIC           National Drug Intelligence Center

NGIC           National Gang Intelligence Center

OCDETF         Organized Crime Drug Enforcement Task Force

ODAG           Office of the Deputy Attorney General


U.S. Department of Justice                                             59
Office of the Inspector General
Evaluation and Inspections Division
ONDCP          Office of National Drug Control Policy

RICO           Racketeer Influenced and Corrupt Organizations Act

RISS           Regional Information Sharing Systems

USAO           United States Attorney’s Office

USMS           U.S. Marshals Service




U.S. Department of Justice                                          60
Office of the Inspector General
Evaluation and Inspections Division
                    APPENDIX VII: DEPARTMENT’S RESPONSE




                                                               u.s.    Department of Justk:e

                                                              Office of the Deputy Attorney General




                                                               HbshinglOtJ,   ne.   205J()

                                                           November 10, 2009




              MEMORANDUM

              TO:                   Michael D. Gulledge
                                    Assistant Inspector General for Evaluation and Inspection
                                    Office of the Inspector General

              FROM:                 lennifer Shasky CaIVery;)5;.              1>17
                                    Senior Counsel                     ~1
                                    Office of the Deputy Attorney General

              SUBJECT:              Joint Response to the OIG's Draft Report: " A Review of the
                                    Department' s Anti-Gang Intelligence and Coordination Centers"

                      The Office of the Deputy Attorney General (ODAG) very much appreciates the
              opportunity to review and respond to the Office of the Inspector General's drat audit report
              entitled, "A Review of the Department's Anti-Gang Intelligence and Coordination Centers"
              (hereinafter, "Report"). This memorandum will serve as the joint response to the Report
              on behalf of the Criminal Division, the Federal Bureau of Investigation (FBI), and the
              ODAG.

                      The Department of Justice is highly committed to leading the effort to combat the
              public safety threat posed by national and international gangs. We are equally committed
              to providing effective and comprehensive gang intelligence and coordination services to
              support enhanced gang investigations and prosecutions nationwide.

                      The Report docwnents the Department's challenges in achieving the maximum
              impact at the national level against the most violent gangs in the United States, and providing
              investigators and prosecutors with one integrated source for gang information and assistance.
              The Department agrees with the concept of the recommendations that are reflected in the
              body of the Report and is taking steps to address each of those recommendations. At the
              same time, we recognize, and have discussed with OIG staff, that we are considering
              organizational changes that might modify how we implement those recommendations in
              order to achieve the most effective resolution to the matters under review.




U.S. Department of Justice                                                                                      61
Office of the Inspector General
Evaluation and Inspections Division
                                                              -2-

                      Notwithstanding the challenges, it also bears noting that the Department's anti-gang
              intelligence and coordination centers have been working together and within two months of
              working together, the centers jointly identified 13 priority gang threats. Accordingly, they
              have certainly established a foundation upon which to build further success. Addressing
              the identified challenges will only serve to enhance their overall effectiveness and increase
              their impact on the gang problem in this country.

                      In conclusion, based upon a review of the Report, the ODAG agrees in concept with
              all 15 recommendations directed to the Criminal Division, FBI, and ODAG and is in the
              process of evaluating and formulating measures to resolve many of the identified issues.
              The ODAG appreciates the professionalism exhibited by your staff in working jointly with
              our combined representatives to complete this evaluation and inspection.

                     Please feel free to contact me should you have any questions.




U.S. Department of Justice                                                                                    62
Office of the Inspector General
Evaluation and Inspections Division
                     APPENDIX VIII: OIG ANALYSIS OF THE

                         DEPARTMENT’S RESPONSE



       The Office of the Inspector General provided a draft of this report to the
Office of the Deputy Attorney General (ODAG), the Criminal Division, and the
FBI for their comments. The consolidated Department response prepared by
the ODAG is included in Appendix VII of this report. The OIG’s analysis of the
Department’s response and the actions necessary to close the
recommendations are discussed below.

Recommendations 1 to 15. See pages 43 and 44 for the text of the
recommendations.

       Status. Unresolved – open.

       Summary of the Department’s response. The Department agreed in
concept with all of the recommendations in the report. The Department also
stated that it is in the process of evaluating and formulating measures to
address the recommendations, which may include considering organizational
changes. The Department also stated that the final form of the organizational
changes might affect how it implements the measures to achieve the most
effective resolution to identified issues.

      OIG Analysis. Because the Department did not provide specific
responses to the recommendations, or a discussion of any specific planned
corrective actions or proposed completion dates, we consider all
recommendations in this report to be “unresolved.” To resolve the
recommendations, the Department should provide specific responses to the
recommendations, including proposed corrective actions and completion dates,
by January 29, 2010.




U.S. Department of Justice                                                  63
Office of the Inspector General
Evaluation and Inspections Division
